<html>
<title> - DEPARTMENT OF JUSTICE, OFFICE OF JUSTICE PROGRAMS OVERSIGHT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
     DEPARTMENT OF JUSTICE, OFFICE OF JUSTICE PROGRAMS OVERSIGHT

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                           SEPTEMBER 18, 2008

                               ----------                              

                           Serial No. 110-208

                               ----------                              

         Printed for the use of the Committee on the Judiciary


   Available via the World Wide Web: http://judiciary.house.gov 



                   U.S. GOVERNMENT PRINTING OFFICE
44-494 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                      COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S


                              ----------                              

                           SEPTEMBER 18, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     4

                               WITNESSES

Mr. Jeffrey L. Sedgewick, Acting Assistant Attorney General, 
  Office of Justice Programs (OJP), U.S Department of Justice, 
  Washington, DC
  Oral Testimony.................................................     6
  Prepared Statement.............................................    10
Mr. Shay Bilchik, Research Professor, Georgetown Public Policy 
  Institute, Washington, DC
  Oral Testimony.................................................    44
  Prepared Statement.............................................    46
Mr. Bill Piper, Director, Office of National Affairs, Drug Policy 
  Alliance Network, Washington, DC
  Oral Testimony.................................................    55
  Prepared Statement.............................................    57
Mr. Ronald E. Brooks, President, National Officers' Association 
  Coalition, San Francisco, CA
  Oral Testimony.................................................    61
  Prepared Statement.............................................    64
Ms. Mary Lou Leary, Executive Director, National Center for 
  Victims of Crime, Washington, DC
  Oral Testimony.................................................    75
  Prepared Statement.............................................    78
Mr. Peter Marone, Chairman of the Consortium of Forensic Science 
  Organizations, Richmond, VA
  Oral Testimony.................................................    89
  Prepared Statement.............................................    91
Mr. Charlie Sullivan, National CURE, Washington, DC
  Oral Testimony.................................................    93
  Prepared Statement.............................................    95

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Louie Gohmert, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Crime, Terrorism, and Homeland Security     4

                                APPENDIX

Material Submitted for the Hearing Record........................    99


      DEPARTMENT OF JUSTICE, OFFICE OF JUSTICE PROGRAMS OVERSIGHT

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 2008

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 11:36 a.m., in 
room 2237, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Weiner, Gohmert, and Coble.
    Staff present: Bobby Vassar, Majority Chief Counsel; Ameer 
Gopalani, Majority Counsel; Jesselyn McCurdy, Majority Counsel; 
Mario Dispenza (Fellow) BATFE Detailee; Veronica Eligan, 
Professional Staff Member; Kimani Little, Minority Counsel; and 
Kelsey Whitlock, Minority Staff Assistant.
    Mr. Scott. The Subcommittee will now come to order, and I 
am pleased to welcome you today to the oversight hearing before 
the Subcommittee on Crime, Terrorism, and Homeland Security, 
the Department of Justice, Office of Justice Programs.
    The mission of the Office of Justice Programs, or OJP, is 
to increase public safety and improve the fair administration 
of justice across the United States. To accomplish this 
mission, OJP provides information, conducts research and 
development, publishes statistics, and conducts training--all 
of which is geared toward helping the justice community meet 
its public safety goals through local decision-making.
    Since enhancing public safety is OJP's objective, the 
success or setbacks affect the quality of life for all 
Americans. The Subcommittee's oversight is therefore critical 
to ensure that OJP is fulfilling its mission and that Congress 
is providing OJP with the resources it needs.
    Today we will focus the oversight on the OJP component 
organizations, the Bureau of Justice Assistance, the Bureau of 
Justice Statistics, the National Institute of Justice, the 
Office of Victims of Crime, and the Office of Juvenile Justice 
and Delinquency Prevention.
    OJP has been successful in many areas. For example, the 
Bureau of Justice Assistance funds critical programs such as 
the Byrne Justice Assistance Grant program, or the Byrne JAG, 
that assists States and local governments in improving their 
criminal justice system.
    The National Institute of Justice funds state DNA efforts, 
particularly in trying to reduce the large backlog of untested 
DNA evidence samples in the Nation's forensic labs.
    The Office of Juvenile Justice and Delinquency Prevention 
funds programs and funds training of community leaders and 
model programs for keeping youth productive, in school, and 
away from crime, which is probably the part--away from crime is 
perhaps the best policy of all.
    However, the Office of Justice Programs has encountered a 
number of challenges and criticisms within these successful 
endeavors. For example, the Byrne JAG program, when used 
appropriately, can fund a range of crime-fighting approaches 
incorporating law enforcement education, community programs, 
drug treatment, technology improvement, and victim and witness 
programs. But the current funds have not always been used 
appropriately.
    Advocacy groups have criticized some States for using the 
funding for drug task force to target low-level drug users or 
other poorly-chosen objectives that do not reduce overall 
crime. The Subcommittee will inquire about what steps VJA has 
taken to ensure that such mistakes do not occur.
    Further, the NIJ's forensic evidence program may need 
enhancement. That program has made great strides in aiding 
local forensic labs, which are now receiving DNA samples from 
crime scenes and convicted offenders faster than they can 
examine and enter them into the State and local databases.
    The increased sample collection has resulted in an enormous 
backlog of untested evidence, and the agency has funded State 
and local law enforcement agencies to test nearly 104,000 DNA 
cases from 2004 to 2007. And it has funded 2.5 million 
convicted offender and arrestee samples.
    Yet these efforts have not significantly reduced the 
Nation's backlog. So we must continue to assess this issue and 
possibly increase support for DNA initiatives. However, 
concerns have been raised by OJP customers that the heightened 
funding for DNA technology has neglected the vast majority of 
forensic science, creating an even larger backlog of non-DNA 
evidence.
    Although critical, DNA evidence only represents 
approximately 9 percent of crime lab backlogs, because DNA is 
not the type of evidence that police collect in examining most 
crime scenes. Evidence such as fingerprints, fibers, 
ballistics, and many other kinds of evidence comprise the other 
91 percent of the evidence backlog in police labs needing 
Federal support.
    The Paul Coverdell National Forensic Sciences Act of 2000 
supports States in general development and maintenance of their 
criminal forensics science program, but it has never been 
funded. Thus, congressional support requesting DNA assistance 
may be incomplete, and the Subcommittee will discuss whether 
this is indeed the case and how to correct it, and why NIJ has 
not been advocating for stronger funding and support for non-
DNA forensic evidence testing.
    Another concern for the Office of Juvenile Justice and 
Delinquency Prevention programs is the core juvenile justice 
objective. Critics maintain that over the past several years, 
OJJDP has conducted less research into juvenile delinquency 
prevention than is warranted, suggesting disengagement in this 
area.
    The agency was created through the Juvenile Justice and 
Delinquency Act of 1974 with a mandate to research juvenile 
justice issues and to provide information to provide effective 
juvenile justice policies. Therefore, if the criticism is 
accurate, we should ascertain why it has occurred and how to 
refocus the agency's efforts.
    Underlying each challenge has been decreased funding. The 
Byrne JAG funding has been reduced from over $560 million in 
fiscal year 2007 to just over $170 million this fiscal year. 
Funding for assisting victims of crime has also been 
dramatically reduced, and the OJJDP appropriation has plummeted 
from almost $7 million in fiscal to 2001 to only $700,000 in 
fiscal year 2008. Yet the administration has asked for further 
decreases in funding for the next upcoming fiscal year, when 
there remains great concern about crime.
    The prospect of continued decreased funding for the 
criminal justice system is troubling. It is important to know 
how OJP plans to address its customers' needs.
    Finally, the Subcommittee will discuss potential NIJ 
research projects that may have far-reaching effects in the 
criminal justice system. In January 2008 the Columbia Law 
Review article, entitled ``Judging Innocence'' by Professor 
Brandon Garrett of the University of Virginia Law School, 
leveled serious criticisms of forensic science. After reviewing 
the first 200 cases in which DNA evidence exonerated a 
wrongfully convicted defendant, Professor Garrett concluded 
that in 57 percent of those cases, forensic evidence was 
introduced against the defendant at trial, and that forensics 
was questionable from a scientific point of view and was given 
undue weight at the trial.
    In July 2008, John Collins and Jay Jarvis of the Crime Lab 
Report, an organization that provides media and public policy 
analysis for the forensic science community, published ``The 
Wrongful Conviction of Forensic Science.'' The authors of the 
report also evaluated the first 200 wrongful convictions that 
were overturned through DNA evidence and came to a different 
conclusion.
    Although they concluded that in some instances evidence 
based on poor scientific principles contributed to the wrongful 
convictions, it was far less common than Professor Garrett has 
concluded. They found that although 57 percent of the first 200 
wrongful convictions did indeed employ forensic evidence 
against defendants, it was not the case that in each of these 
cases, that evidence was the fault for the wrongful conviction, 
but other factors, such as poor defense lawyering and ethical 
violations by prosecutors played a more significant role.
    Forensic science has taken an increased role in criminal 
trials, and the extent of its accuracy and the proper context 
for presentation must be clear to the jury for the jury to 
render a legitimate verdict. As the Department of Justice's 
research arm for criminal justice, NIJ is in the best position 
to study this issue and report its findings to bolster the 
fairness of criminal trials.
    Another area warranting study is the decreased death rates 
in the Nation's prisons and jails and the impact that this 
oversight in general and the Deaths in Custody Reporting Act of 
2000 has had in the decreasing death rate. Since the enactment 
of the Deaths in Custody Reporting Act, BJS has compiled a 
number of statistics regarding prisoner deaths, and the 
statistics show that oversight works.
    The latest BJS report, August 2005, shows that since the 
oversight emerged in the mid-1980's, there has been a 64 
percent decline in suicides and 93 percent decline in homicide 
rates in prison. The Deaths in Custody Reporting Act thus 
appears to be successful in the--oversight, keeping prisoners 
safer, and the ability of statistics has proven useful in 
shedding light on a potential problem.
    In fact, recently The Washington Post ran an article about 
excessive death rates from violence in the Prince George 
County, Maryland, jail. The Washington Post used statistics 
published on the BJS website which were compiled through the 
Deaths in Custody reporting requirement. However, there are no 
NIJ studies to support whether the reporting requirements have 
enhanced safety and no studies to detail the best practices for 
prisoner safety. Such studies would be important evidence for 
developing policy in the future.
    It is now my pleasure to recognize the esteemed Ranking 
Member of the Subcommittee, the gentleman from Texas, the 
Honorable Judge Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott.
    I appreciate this hearing. I have a statement that I would 
ask unanimous consent that it be submitted in writing for the 
record so that I won't review that and waste further time with 
Acting Assistant Attorney General Sedgewick. But I would like, 
if that is----
    Mr. Scott. Without objection.
    [The prepared statement of Mr. Gohmert follows:]
Prepared Statement of the Honorable Louie Gohmert, a Representative in 
 Congress from the State of Texas, and Ranking Member, Subcommittee on 
                Crime, Terrorism, and Homeland Security
    Thank you, Mr. Chairman,
    Today, the Crime Subcommittee is holding an oversight hearing on 
the activities of the Department of Justice Office of Justice Programs 
(OJP).
    Exercising oversight of the federal agencies within this 
subcommittee's jurisdiction is part of our jobs as Members of Congress. 
Conducting oversight hearings is a responsible use of our time and I 
commend the Chairman for holding this one.
    The Office of Justice Programs has the mission to increase public 
safety and improve the fair administration of justice across America 
through innovative leadership and programs. OJP disseminates 
information, training, coordination, and innovative strategies for 
effective law enforcement to federal, state, local and tribal agencies.
    OJP oversees a number of components that have important law 
enforcement roles and responsibilities. Among those components are the 
Bureau of Justice Assistance, the National Institute of Justice, the 
Office for Victims of Crime, and the Office of Juvenile Justice and 
Delinquency Prevention.
    The Bureau of Justice Assistance (BJA) provides leadership and 
assistance to state and local law enforcement officials. BJA has the 
goals to reduce and prevent crime, violence, and drug abuse and to 
improve the way in which the criminal justice system functions.
    BJA is probably best known as the component that administers the 
Byrne JAG Grant program, which allows states and local governments to 
support a broad range of activities to prevent and control crime. Byrne 
JAG funding has diverse uses including multi-jurisdictions drug task 
forces, alternatives to incarceration like drug and community courts, 
and equipment purchases for cash-strapped law enforcement officials.
    The National Institute of Justice (NIJ) is the research, 
development, and evaluation component of OJP. NIJ is dedicated to 
researching crime control and criminal justice issues. NIJ also 
produces print and electronic publications, tools, and training 
materials about crime and justice.
    The Office for Victims of Crime (OVC) has the mission to enhance 
the country's capacity to assist crime victims. OVC also provides 
leadership in changing attitudes, policies, and practices to promote 
justice and healing for all victims.
    Each year, OVC provides funding for some 5,500 victim assistance 
programs serving 4 million crime victims. OVC also supports state 
compensation programs that serve an additional 180,000 victims.
    The Office of Juvenile Justice and Delinquency Prevention (OJJDP) 
provides national leadership, coordination, and resources to prevent 
and respond to juvenile delinquency and victimization.
    OJJDP's mission is to support states and communities in their 
efforts to develop and implement effective and coordinated prevention 
and intervention programs. OJJDP also works to improve the juvenile 
justice system so that it protects public safety, holds offenders 
accountable, and provides treatment and rehabilitative services 
tailored to the needs of juveniles and their families.
    This is first Crime Subcommittee oversight hearing on this 
important DOJ agency and its components in the 110th Congress. In fact, 
we have not held an oversight hearing on OJP since 2002.
    Although this hearing comes towards the end of this session, I 
believe that the Subcommittee's Members will benefit from hearing 
testimony about OJP's mission and activities, as well as the challenges 
it faces.
    I welcome Acting Assistant Attorney General Sedgewick to our 
subcommittee. I look forward to your testimony and the testimony of the 
other witnesses.
    I yield back the balance of my time.

    Mr. Gohmert. And then I would like to mention that I am 
glad we are having this hearing; I appreciate your calling this 
hearing. This is the first hearing, since I have been in 
Congress, of oversight in this area. And it is an important 
thing to have.
    Some of the figures that we have just heard, though, 
trouble me. I think it is difficult for anyone to come in and 
say 57 percent of any number of convictions have been wrongful 
convictions. I will bet that if we had a trial of whoever came 
up with 57 percent exactly of convictions being wrongful, we 
could probably convict him of giving an inappropriate 
percentage, but--because I am familiar with trials and know how 
hard it is to come in and say ``this was wrongful, this 
wasn't,'' when you have had a jury come in and find beyond 
reasonable doubt that someone was appropriate to convict.
    I have also seen cases--one, for example, in my court--
where the forensics and the DNA evidence all pointed to the 
guilt of the defendant having had sexual relations with an 
under-aged child, his own. It turns out it was planted and he 
was not actually guilty. But that would probably have been one 
that would have gone on as a part of the 43 percent that was an 
accurate conviction, when it would not have been at all.
    So anyway, this is such a difficult area. But it is 
important that we have funding to assist in appropriate 
programs. It is also hard for me to say that we overfunded this 
important DOJ area if funds were wasted. I wouldn't want to 
extend more funds to an area where it is wasted.
    So it is quite important we have this oversight--find out 
where it has been effective and we need more funding to be more 
effective; find out where it has been wasted, where we can cut 
and put that in more effective areas.
    So with that, I yield back the balance of my time and look 
forward to hearing from the acting assistant attorney general.
    Mr. Scott. Thank you.
    We have two panels of distinguished witnesses with us today 
to discuss OJP's mission, accomplishments, and challenges. The 
first witness is Mr. Jeffrey Sedgwick, Acting Assistant 
Attorney General for the Office of Justice Programs. He is 
responsible for providing overall management and oversight of 
OJP. He has held this position since January 2008, and in April 
President Bush nominated him to be the Assistant Attorney 
General. He has an A.B. degree from Kenyon College, a master's 
degree and PhD from the University of Virginia. After earning 
his PhD, Mr. Sedgwick joined the University of Massachusetts 
faculty and is presently on leave from that position.
    Mr. Sedgwick, your written statement will be made part of 
the record in its entirety. I would ask you to summarize your 
testimony in approximately 5 minutes or less, if you can. To 
help you stay within that time, there is a lighting device at 
the table that will go from green to yellow when 1 minute is 
up, and then to red when the 5 minutes are up.
    We look forward to your testimony.

  STATEMENT OF JEFFREY L. SEDGWICK, ACTING ASSISTANT ATTORNEY 
 GENERAL, OFFICE OF JUSTICE PROGRAMS (OJP), U.S DEPARTMENT OF 
                    JUSTICE, WASHINGTON, DC

    Mr. Sedgwick. Thank you, Mr. Chairman.
    Thank you, Ranking Member Gohmert, and Members of the 
Subcommittee.
    I am pleased to have this opportunity to discuss our 
efforts to continuously improve the operations and management 
of the Office of Justice Programs. We appreciate the 
Subcommittee's continued interest in eliminating duplication 
and waste, as well as improving the operations of Federal grant 
programs.
    As the Acting Assistant Attorney General, I am responsible 
for the overall management and oversight of OJP. This includes 
setting policy, ensuring that OJP programs reflect the 
priorities of the President, the attorney general, and the 
Congress, and promoting coordination among the OJP offices and 
bureaus.
    OJP provides approximately $2 billion annually to the 
criminal justice community and State, local and tribal law 
enforcement to help develop the Nation's capacity to prevent 
and control crime, improve justice systems, increase knowledge 
about crime and related issues, and assist crime victims.
    Today, Mr. Chairman, I would like to highlight some of 
OJP's recent accomplishments, our work to improve the 
transparency and management of grants, how we measure the 
effectiveness of the programs, as well as our efforts to 
implement the Department of Justice Reauthorization Act of 2005 
that established our Office of Audit, Assessment and 
Management.
    As Acting Assistant Attorney General, I also have the 
pleasure to serve as the national Amber Alert coordinator. 
Since the AMBER Alert program became a federally coordinated 
effort, we have expanded our base of partners and continue to 
work with States and communities to strengthen plans. Today, 
all 50 States have AMBER Alert plans, and we expanded the 
network into Indian Country. We partnered with the wireless 
industry to distribute AMBER Alerts through voluntary text 
messages, and these accomplishments have assisted in the 
recovery of over 400 children. We continue to look for ways to 
improve this system.
    In fiscal year 2008, our Office for Victims of Crime 
awarded more than $480 million to State crime victim assistance 
and compensation programs. The States use these funds to award 
some 5,000 victim assistance grants annually to domestic 
violence shelters, rape crisis centers, child abuse programs, 
and victim service units and law enforcement agencies, 
prosecutors' offices, hospitals and social service agencies. In 
fiscal year 2007, States reported providing direct services to 
over 4 million crime victims using OJP funds.
    To understand why an increasing number of girls are 
entering the juvenile justice system and to better understand 
how to prevent and intervene in girls' delinquency, OJP's 
Office of Juvenile Justice and Delinquency Prevention convened 
a girls' study group. The group made significant progress in 
understanding patterns of offending among adolescents and how 
these patterns differ between girls and boys, risk and 
protective factors associated with delinquency, including 
gender differences, and the importance of these issues when 
developing effective prevention and intervention programs.
    In May 2008, OJJDP released ``Violence by Teenage Girls: 
Trends and Context,'' the first in a series of bulletins based 
on the findings of the study group. OJP provides support and 
funding for law enforcement and criminal justice initiatives 
nationwide. In fiscal year 2008, our Bureau of Justice 
Assistance administered $466 million through approximately 
1,700 grant programs.
    One of BJA's most significant accomplishments is the 
Targeting Violent Crime Initiative. Through TVCI, BJA 
administers 106 grants to 103 State, local and tribal law 
enforcement agencies.
    Since February of this year, TVCI agencies have reported 
more than 5,000 violent felony arrests, more than 2,700 guns 
seized, nearly 400 gangs disrupted, and 50 gangs dismantled. 
The TVCI is designed to create immediate support for 
jurisdictions suffering increases in violent crime, while 
encouraging adaptation of intelligence-led policing.
    In addition to BJA's activity, the Bureau of Justice 
Statistics plays a critical role in supporting criminal justice 
programs through the improvement and sharing of criminal 
justice information. In 2008, BJS awarded over $8 million to 35 
jurisdictions to support the National Criminal History 
Improvement Program, or NCHIP. NCHIP provides grants to States 
to improve the accuracy, completeness and availability of the 
Nation's criminal history records, which are used for criminal 
justice and non-criminal justice background checks.
    In 2008, BJS also made 13 awards to States totalling almost 
$3 million for the Stalking and Domestic Violence Record 
Improvement Program. This program provides grants to States to 
improve processes for entering criminal justice data regarding 
stalking and domestic violence into local, State and national 
crime information databases.
    The National Institute of Justice has also found ways to 
make a relatively small investment benefit law enforcement 
agencies nationwide. One example is the National Missing and 
Unidentified Persons initiative, or NamUS, launched in 2007. 
When fully operational in 2009, NamUS will provide a powerful 
tool for law enforcement, medical examiners and coroners, 
victim advocates and the general public to search for matches 
between missing persons and unidentified human remains records.
    NamUS will be the first national on-line repository for 
missing persons and unidentified dead cases. It will also 
provide central access to information from other websites, 
State clearinghouses, and other important resources.
    Exonerating the innocent is a key component of the 
President's DNA initiative, and in August 2008, NIJ awarded 
five grants under the post-conviction DNA testing assistance 
program. NIJ has also undertaken several new initiatives to 
increase understanding of and to assist States in obtaining the 
resources they need to address those conviction issues.
    Our Community Capacity Development Office, or CCDO, is 
another OJP component that helps States and local communities 
make the most out of limited resources. CCDO's strategic three-
pronged approach is comprised of direct grant assistance, 
training and technical assistance, and program development 
through promotion of partnerships and best practices. This 
approach provides a broad return on investment of Federal 
dollars that is unlike any other Federal criminal justice 
program.
    CCDO's flagship program, the Weed and Seed Initiative, is a 
community-based, comprehensive, multi-agency approach to public 
safety. There are currently 320 neighborhoods across the 
country where Weed and Seed is being implemented. The Weed and 
Seed strategy brings together Federal, State and local crime-
fighting agencies, social service providers, representatives of 
public and private sectors, prosecutors, business owners, and 
neighborhood residents under the shared goal of weeding out 
violent crime and/or gang activity while seeding in social 
services and economic revitalization.
    In fiscal year 2008, $28 million for new Weed and Seed 
sites will be awarded.
    Finally, OJP's newest office, the Sex Offender Sentencing, 
Monitoring, Apprehending, Registering and Tracking office, also 
known as the SMART office, recently established the Support for 
Adam Walsh Act implementation grant program to assist 
communities in developing and/or enhancing programs designed to 
implement the requirements of the Sex Offender Registration and 
Notification Act, SORNA, which is Title I of the Adam Walsh 
Act.
    In fiscal year 2007, the SMART office awarded more than $11 
million to support various projects across the United States. 
In fiscal year 2008, the SMART office will provide more than $4 
million in direct grant assistance to further these efforts, 
along with continued support through training and technical 
assistance.
    On July 1st of this year, we released the final guidelines 
for SORNA. These guidelines provide direction and assistance 
for jurisdictions in their efforts to meet the minimum 
standards of the SORNA. The guidelines detail who must register 
as sex offenders, how long they must register, the type of 
information they must disclose, how frequently and under what 
circumstances they must update that information, and how these 
requirements should be enforced.
    OJP is committed to ensuring that our Federal funds for all 
of these worthy programs are spent wisely and have a maximum 
impact on our community, which brings me to the vital 
importance of our grant selection process and grant monitoring.
    OJP has concentrated on becoming more results-oriented, 
more efficient, and more effective, so that we can provide 
Federal leadership in preventing and controlling crime to 
promote our Nation's security. To that end, OJP is committed to 
an ongoing analysis of what works and what doesn't, so criminal 
justice policy makers at all levels of government can better 
decide how to invest limited public dollars.
    As you know, OJP administers both formula and discretionary 
grants. While we make every effort to process grant 
applications promptly, all applications must satisfy rigorous 
grant financial management standards to ensure that OJP 
fulfills its fiduciary responsibility to the American taxpayer. 
Every application passes through a multi-stage process to 
ensure that all applicable requirements are satisfied.
    In fiscal year 2008, OJP increased its emphasis on 
measuring the results of the programs funded through OJP and 
focused our resources on the most effective programs. In an 
effort to improve transparency during the grant application and 
selection processes, we combined the peer review support 
contract of each individual OJP office into a single OJP-wide 
contract to streamline and standardize the peer review process.
    In addition, any grant award decisions this year that 
varied from peer reviewed are fully documented, including the 
reasons why such decisions were made. Further, we instituted a 
grant monitoring tool, known as GMT, which grant managers use 
to monitor grants and cooperative agreements consistently 
across our program offices. The GMT requires grant managers to 
review all grants against a set of 22 standard review 
categories to determine administrative and financial compliance 
with grant management policies, procedures and regulatory 
requirements, as well as to evaluate the programmatic progress 
and success of efforts funded through the grant.
    The GMT is helping us increase the oversight of our grant 
program by ensuring that the funds awarded to grantees are 
being properly managed and that grant objectives are being met.
    To further enhance the grants management process, we have 
developed better grant management skills and capabilities for 
our staff. For example, we revised the OJP grant manager's 
manual to document policies and procedures for administration 
and management of all OJP grant programs. To ensure these 
policies are implemented, OJP held training for over 400 grant 
managers, staff accountants, and other OJP employees.
    [The prepared statement of Mr. Sedgwick follows:]
               Prepared Statement of Jeffrey L. Sedgwick
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Mr. Sedgwick, we have had votes that are called, 
so we are going to have to ask you to suspend at this point so 
we can go vote. We will be back as soon as we can. There are 
two votes, so it will be about 10 or 15 minutes.
    The Subcommittee stands in recess.
    [Recess.]
    Mr. Scott. The Subcommittee will come back to order.
    Mr. Sedgwick, do you have a concluding comment?
    Mr. Sedgwick. Let me begin by thanking you for your 
forbearance, as I violated your time guidelines. I have got 
about a page left, but I would happily have that read into the 
record and use the Committee's time----
    Mr. Scott. Okay.
    Mr. Sedgwick [continuing]. To address the questions that 
you have.
    Mr. Scott. Okay. Thank you very much. I now recognize 
myself for 5 minutes of questions.
    What have you published in terms of best practices and most 
cost-effective approaches to juvenile crime?
    Mr. Sedgwick. The issue of juvenile crime is obviously one 
of growing importance. I just noticed during your break that 
today there is a news report on the declining age at which 
juveniles become involved in violent crime. It is an issue that 
has taken considerable attention for us in OJP.
    One of the things that we have discovered and studied quite 
a bit since 2006, when I was fortunate enough to be part of the 
18-city tour that went around the United States examining why 
crime is increasing in some communities and decreasing in 
others--one of the principal things that we learned was that 
for those communities that are experiencing increases in crime, 
it seems to be concentrated among youth.
    So this is a very serious issue that we have identified and 
are focusing on with a great deal of interest. There is clearly 
something going on out there in our communities that has led a 
number of people, at decreasingly young ages, to cross the line 
from committing property crimes into violent crimes. And that 
is an issue that we are currently working on with a great deal 
of attention and emphasis.
    Mr. Scott. Do you have research to show what works and what 
doesn't work to reduce violent crime amongst juveniles?
    Mr. Sedgwick. Amongst juveniles? As I mentioned in my 
opening comments, we have done extensive work recently in the 
Office of Juvenile Justice and Delinquency Prevention to 
identify the causes and correlates of increased violence, 
particularly among young girls, juvenile girls.
    Do we have a sufficient level of knowledge of what is 
causing the changing nature of crime in the United States at 
this point? I would have to say to you, ``no, we don't.'' But 
that is a prime issue on our research agenda to continue to 
look at, because quite frankly this is a moving target. This is 
something that is changing under our feet as we speak.
    Mr. Scott. Do you have a list of initiatives that work and 
don't work?
    Mr. Sedgwick. We have a number of best practices in terms 
of gang violence, which predominantly occurs among juveniles. 
Those have grown out of, for example, our funding programs and 
our work in both the Bureau of Justice Assistance and the 
Office of Juvenile Justice and Delinquency Prevention.
    BJA, of course, we have our G.R.E.A.T. program. And through 
juvenile justice we have a variety of programs and studies of 
best practices to reduce juvenile----
    A number of initiatives that are dealing with gang 
violence, a number of programs that are dealing with--
prevention programs to try to defer or delay the entry of 
juveniles into violence.
    Mr. Scott. Do prevention programs reduce juvenile violence?
    Mr. Sedgwick. There are prevention programs that do work, 
yes.
    Mr. Scott. Do we reduce juvenile violence by trying more 
juveniles as adults? Or do we increase juvenile violence by 
trying more juveniles as adults? Not try some juveniles, try 
more juveniles.
    Mr. Sedgwick. I think that is a very difficult question to 
answer as kind of a generalization. There very well may be 
types of crimes and juveniles at particular ages that are still 
classified as juveniles that are----
    Mr. Scott. Most of the studies that I have seen have 
concluded that if you try more juveniles as adults, violent 
crime will go up.
    Mr. Sedgwick. I would be happy to review the state of the 
research on that question and get back to you on that.
    Mr. Scott. You mentioned sex offense registry. Does your 
sex offense registry differentiate between who has to register 
and for how long based on the seriousness of the crime?
    Mr. Sedgwick. Right now as I understand it, the SORNA 
guidelines are an attempt to bring a very wide variety of 
disparate sex registry standards among the States up to a 
common Federal level. And make sure that those sex offender 
registries are available across State jurisdictions, so that an 
offender cannot escape accountability or scrutiny by moving 
from one jurisdiction where the offense was committed to 
another jurisdiction.
    The actual particulars of what goes into getting one onto a 
sex offender registry is a matter, as I understand it, of State 
law. And so I can't give you a jurisdiction-by-jurisdiction 
characterization of how each jurisdiction operates its registry 
or operates the criterion by which a person gets onto a sex 
offender registry.
    Mr. Scott. And just very quickly, because my time is 
expiring, the Deaths in Custody Act, have you subjected the 
information we have gained from the Deaths in Custody Act to 
research to find out what we can do to reduce deaths in 
custody?
    Mr. Sedgwick. The primary work that we have done at OJP on 
deaths in custody has been the data collection effort, which 
has, as you noted in your opening comments, identified where 
the characteristics of--what are the characteristics on deaths 
in custody and where they tend to happen most frequently. But 
also, on what the nature of those deaths is.
    You quite correctly identified that what we know now is a 
declining incidence of violent deaths in custody, particularly 
in prison and jail. We are continuing to push forward on our 
attempt to get better data from law enforcement on deaths that 
occur in the process of taking persons into custody, which of 
course presents some unique challenges, as you and I have had 
the opportunity to discuss previously.
    And I think one of the gratifying things about the 
collection of data that we have done through OJP, and 
particularly through the Bureau of Justice Statistics, is we 
have seen declining death rates, except through illness.
    Mr. Scott. You haven't had research to help target why the 
reduction occurred or what we can do to continue the reduction?
    Mr. Sedgwick. Well, beginning to know where to do that 
research depends on knowing what the nature of the----
    Mr. Scott. And we haven't done this research yet, is that 
true?
    Mr. Sedgwick. Yes.
    Mr. Scott. Okay. Thank you.
    Mr. Gohmert?
    Mr. Gohmert. Thank you.
    Appreciate, Mr. Sedgwick, your being here. Appreciate your 
testimony. There is no need for you to apologize for going over 
the allotted time. We have the 5-minute rule and actually, when 
the bell went off for us to go vote, my thought was, okay, we 
have got time for him to do his 5-minute statement, and 
Chairman Scott and I both get our questions in, and you will be 
done before we get to voting. But when you went over twice as 
long for your allotted time, it kind of ensured you had to come 
back---- [Laughter.]
    And it also ensured that there would be more chances for 
other Members to get here and have time to ask you questions. 
So I am not the one that is being punished for you going 
overtime.
    But I would like to ask you--you know, you spent time 
talking about the formula--we know the formula and 
discretionary awards. Can you tell me specifically the manner 
in which the formula is calculated for the formula grants?
    Mr. Sedgwick. Well, it would depend on the program. Some 
formula grants distribute funds according to the incidence and 
prevalence of particular types of crimes in a jurisdiction. 
And----
    Mr. Gohmert. How is the formula arrived at?
    Mr. Sedgwick. Well, the formula is very often specified in 
legislation. And then what happens is, the Bureau of Justice 
Statistics cooperates with the grant-making agency. Let's use 
as an example a program where funds are distributed on the 
basis of the crime rate in a particular jurisdiction.
    In cases like that, typically what happens is, let's say 
the Bureau of Justice Assistance will go to the Bureau of 
Justice Statistics and say, you are statisticians, you guys 
know what the crime rate is in particular jurisdictions or you 
can get access to that data through the FBI's UCR program. So 
please go and calculate for us what the crime rate is by 
jurisdictions that are eligible to apply for funds----
    Mr. Gohmert. Okay, but that goes into how you get the 
factors to plug into the formula. I am still going back to the 
formula itself. It seems that there is discretion even when the 
formula is specified in legislation, that there is still 
discretion in how you go about arriving at the information on 
exactly how to interpret the formula itself to gather that 
information.
    Mr. Sedgwick. Yes, though depending on how narrowly the 
statute is drawn, the discretion that we have to kind of come 
up with a formula is more or less restricted. By and large----
    Mr. Gohmert. Who actually makes that decision? Does the 
secretary him or herself actually make that decision, or is it 
submitted from a certain level within the department?
    Mr. Sedgwick. Typically when it is a question of the 
formula, that precise definition of the formula, we don't get 
directions for the formula from outside of OJP. What we 
typically do is we will read the legislation very carefully, 
the Office of General Counsel will look through the 
legislation. And then the precise definition of the formula is 
typically done by the agency that has responsibility for 
administering the formula program.
    So there are formula grants that are distributed, for 
example, by the Office of Victims of Crime. They are 
responsible for coming up with the formula. There are formula 
programs that are administered by the Bureau of Justice 
Assistance. The director of the Bureau of Justice Assistance 
would actually--in consultation with the Office of General 
Counsel--come up with the specific characteristics of the 
formula that is applied, and so on.
    So this is not a matter of someone outside the 
administering agency saying, this is the formula you will use.
    Mr. Gohmert. Well, in deciding an award of competitive 
grants, discretionary grants, does OJP look at how well States 
use their formula funding before awarding those discretionary 
grants?
    Mr. Sedgwick. I am thinking about--being very close to the 
end of the process of making grants for fiscal year 2008, I 
can't think of a situation where, in judging the 
appropriateness of a discretionary grant, we would look or we 
have looked at a State's experience with formula grants, for 
this reason: Very often, discretionary grants are going to a 
different recipient than the formula grants would go to.
    So certainly we are concerned, when we make a discretionary 
grant, the history of the recipient of that grant in terms of 
using Federal funds appropriately. As far as formula grants go, 
which are--what I am getting at is the question of how 
carefully we monitor the use of formula awards or whether we 
simply kind of say, ``Well, the formula says we give these guys 
this much money,'' we give it to them and move on to other 
tasks. I want to reassure you that we take the proper use of 
even formula awards quite seriously and attach to formula 
grants special conditions that assure that they are used 
appropriately.
    Because there has been concern about the use of formula 
awards in the past in ways that violate civil rights, we 
routinely to each of our formula awards, as to all of our 
awards, include a letter from our Office of Civil Rights about 
the expectations and the requirements of the proper use of 
Federal funds.
    And on top of that, we also use grant monitors from our 
offices that administer formula awards to visit the 
jurisdictions that receive formula awards and make sure that 
those funds are used appropriately.
    Mr. Gohmert. Well, that is touching on my concern. My time 
has expired, though. Let me just finish by saying that is part 
of my concern. But part of my concern also, having been 
involved in a number of aspects of the judicial system and 
justice system, is that sometimes the reason entities need 
funding is because they use it so very badly.
    And that there are indicators, perhaps, in formula funding 
use that may be indications, yeah, it looks like they sure need 
discretionary grants, because they blow their money and they 
waste it, whether intentionally or negligently, use it 
inappropriately. And that is a concern I continue to have and 
hope will be better monitored.
    Thank you. Yield back.
    Mr. Scott. Thank you.
    The gentleman from New York. Mr. Weiner?
    Mr. Weiner. Thank you, Mr. Chairman.
    What is the backlog of untested DNA kits in the Nation 
right now?
    Mr. Sedgwick. I don't have that specific information at my 
fingertips, but I would be happy to get back to you with our 
current count of----
    Mr. Weiner. NIJ released some data on it in 2003. We 
haven't heard much since. Do you have any sense of whether 
another report is going to be forthcoming?
    Mr. Sedgwick. I believe there is another report 
forthcoming, and I will try to get you the information on when 
you can expect that.
    Mr. Weiner. Does any of your staff have it handy, by any 
chance?
    Mr. Sedgwick. I don't believe anybody would have it with 
them today.
    Mr. Weiner. We recently, in the House, we authorized that 
they be sent back and some language was included by Chairman 
Scott requiring that we get that information more frequently. 
Part of the problem with the backlog challenge is that 
localities and sheriffs' departments, police departments, are 
reluctant to reveal it because, frankly, it is not a great 
thing to be telling your citizens--we have a lot of evidence 
that we haven't had the opportunity, haven't had the funds, 
haven't had the technology to analyze.
    So I think if your office and NIJ don't do it, frankly, it 
would be very hard for anyone else to do it and make it very 
hard for us to tackle the problem, notwithstanding the amount 
of money that has gone into it.
    Do you have any proof that points to the premise that the 
Federal effort to reduce the backlog, to get grants out into 
the States, has been a success? I mean, do you have some data 
showing where that money has gone, showing how many kits have 
been able to get done? If you were to say--I mean, I think it 
is one of the successes of Federal involvement in helping solve 
local crimes.
    What would be some of the things you have, notwithstanding 
your not having the number of outstanding rape kits? Are there 
other things you can point to to say that hey, this is an 
example of how we have gotten the Federal role in reducing the 
DNA backlog and how it has worked in number of crimes solved, 
number of kits you get in, anything like that?
    Mr. Sedgwick. I can tell you that in terms of the Coverdell 
program grants, which are primarily focused on precisely the 
issue that you have outlined, is funding State forensic 
capabilities so that we reduce the backlog, while also at the 
same time maintaining the kind of quality and integrity of 
forensic evidence that is used not only to convict or hold 
accountable the guilty, exonerate the innocent, but also 
increasingly using DNA evidence to address the very natural 
anguish that families have over missing family members.
    Since fiscal year 2002, we have put out in the field $80 
million in funds through the Coverdell program, precisely to 
build capacity and reduce backlog at the State and local level 
in forensic science. I would like to get back to you with what 
the backlog was at the beginning of the Coverdell program and 
what progress we have been able to make in terms of reducing 
that backlog with the $80 million.
    Mr. Weiner. And also, I would be interested, and maybe you 
know this: Is it getting cheaper? Is it getting less expensive, 
is technology making it possible to do more DNA tests per 
dollar?
    Is it making it--are there advances that are going on as 
the Federal money primes the pump as there is more demand? Is 
it getting less expensive--do you have some data on that, as 
well?
    Mr. Sedgwick. I will look into that for you and get back to 
you.
    Mr. Weiner. That would be great. I think in one of the 
areas of crime and law enforcement where people really do look 
at programs through the lens of their own experience and 
certainly come to different conclusions, when it comes to DNA 
testing, the libertarians see it as you have explained it, as a 
place to make sure that those who are innocent of crimes are 
freed.
    Those of us who believe very strongly in tough penalties 
for crime, DNA is the way to get it done. For families, they 
look at DNA testing as a way to try to solve cases and find 
justice for ones that they haven't had.
    And we have had good consensus around here for the idea 
that we need to increase the Federal role. The missing parts, 
though, you have in your possession to some degree--you know, 
being able to quantify.
    And also being able to get to the next place, which are 
reticent police departments and police agencies who we need to 
use carrots and stick to say, you know what? You might not want 
to share your data, but you have to now. Or here are some 
examples of best practices that are used in one area that are 
not used in others, we are going to require them.
    In order to take that next step beyond just the funding, we 
need some data to work with. And frankly, it has been very hard 
to come by, and your office is marginally the only place that 
we are really going to be able to get that kind of data.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    And thank you, Mr. Sedgwick. We may have additional written 
questions for you that we didn't get to, and we will forward 
them to you so that you can respond in writing.
    Mr. Sedgwick. Thank you very much, Mr. Chairman.
    Mr. Scott. Thank you.
    Mr. Sedgwick. Members of the Committee.
    Thank you.
    Mr. Scott. If our next panel will come forward.
    The next panel is a group of expert witnesses who work with 
the beneficiaries of OJP's programs, and they are here to give 
us their perspective and recommendations for improving OJP 
performance.
    Our first witness will be Mr. Bill Piper, director of 
national affairs for Drug Policy Alliance Network, an 
organization committed to reducing problems associated with 
both drugs and punitive drug policies. He is the author of a 
recent report, ``A Four Pillars Approach to Methamphetamines: 
Policies for Effective Drug Prevention Treatment, Policing, and 
Harm Reduction.''
    His organization is experienced in the Byrne JAG program, 
and the Drug Policy Alliance Mexico office received a $500,000 
Byrne discretionary grant in 2007 to conduct a statewide youth 
methamphetamine prevention program. He has a bachelor's degree 
in economics and political science from Indiana University.
    The next witness will be Pete Marone, chair of the 
Consortium of Forensic Science Organizations. He is a member of 
the forensic educational program accreditation commission for 
the American Academy of Forensic Sciences and the National 
Academy of Sciences committee on identifying the needs of the 
forensic science community. He is also the director of the 
Virginia Department of Forensic Science. He has a bachelor's 
degree and master's degree in chemistry, each from the 
University of Pittsburgh.
    The next witness will be Mr. Ronald Brooks, the national 
president of the Narcotics Officers Association Coalition, 
representing 44 State narcotics officers' associations with a 
combined membership of over 60,000 law enforcement officers 
around the Nation. He is a 32-year California law enforcement 
veteran, with 24 of those being in drug, gang, and violent 
crime enforcement. He has been the primary investigator, 
supervisor or manager for thousands of enforcement operations 
and has written policies and procedures for managing undercover 
operations and for managing informants.
    Next will be Mary Lou Leary, former executive director, 
National Center for Victims of Crime. During her career Ms. 
Leary has held numerous positions with the Department of 
Justice, including acting assistant attorney general for the 
Office of Justice programs from February 2000 to September 
2001. She now oversees the National Center for Victims of 
Crime, which works directly with victims and with over 15,000 
grassroots organizations to help victims receive the 
information, support and resources they need to rebuild their 
lives. She has a bachelor's degree from Syracuse University, a 
master's degree from Ohio State, and a juris doctorate from 
Northwestern.
    The next witness will be Mr. Shay Bilchik, who is the 
research professor at Georgetown Public Policy Institute, the 
former administrator of the Office of Juvenile Justice and 
Delinquency Prevention, and the founder and director of the 
Center for Juvenile Justice Reform at Georgetown University. He 
participates in public forums and teaches courses on juvenile 
justice policy and practice to students at Georgetown Public 
Policy Institute. He has a bachelor of science degree from the 
University of Florida and a juris doctorate from the University 
of Florida Holland Law Center.
    And our final witness will be Mr. Charlie Sullivan, from 
Citizens United for the Rehabilitation of Errants, or CURE. 
CURE is a grassroots organization dedicated to reducing crime 
through reform of the criminal justice system. CURE was 
instrumental in passing a deaths in custody reporting act in 
the state of Texas in 1983 and has worked with Members of 
Congress toward a national reporting deaths in custody bill 
which became the Deaths in Custody Reporting Act of 2000. He 
has a bachelor's degree from St. Mary's College and a master's 
degree from Notre Dame Seminary, New Orleans, Louisiana.
    As I stated to the previous witness, all the witness 
statements will be made part of the record in their entirety. I 
would ask each of the witnesses to summarize their testimony in 
5 minutes or less, and you have the timing device at the table.
    I understand, Mr. Bilchik, you have a time problem. So----
    Mr. Bilchik [continuing]. Flight at 2:20.
    Mr. Scott. So we will take you first, out of order, so that 
you can testify and make your plane, hopefully.

   TESTIMONY OF SHAY BILCHIK, RESEARCH PROFESSOR, GEORGETOWN 
            PUBLIC POLICY INSTITUTE, WASHINGTON, DC

    Mr. Bilchik. Thank you.
    Good afternoon, Chairman Scott and Ranking Member Gohmert.
    I appreciate the opportunity to be before you today to 
testify at the oversight hearing for the Office of Justice 
Programs and the Office of Juvenile Justice and Delinquency 
Prevention, in particular.
    As the founder and director of the Center for Juvenile 
Justice Reform at Georgetown University and former 
Administrator of the Office of Juvenile Justice and Delinquency 
Prevention, I have a tremendous amount of interest in OJJDP's 
leadership role on Federal juvenile justice matters. In the 
testimony I submitted for today's hearing, I highlight six main 
areas of improvement for OJJDP:
    One, realigning focus on the Juvenile Justice and 
Delinquency Prevention Act, which I will call ``the Act'' from 
this point forward, and its core protections; focusing on 
assistance to States; restoring the comprehensive nature of the 
agency; engaging the juvenile justice field; increasing 
transparency; and six, developing the juvenile justice 
workforce.
    In my oral testimony I will focus on the core protections, 
field engagement, and transparency.
    OJJDP was created by the Act. Its purpose is to assist 
State and local governments in preventing and encouraging 
accountability for juvenile delinquency, as well as providing 
technical assistance, research, training, evaluation, and the 
dissemination of information on effective programs for 
combating juvenile delinquency.
    The juvenile justice field and communities around the 
country count on OJJDP to serve as a leader in supporting their 
efforts to prevent and address delinquency. Unfortunately, in 
recent years there has generally been a decreased level of 
activity and information from OJJDP, including the amount of 
research created by the agency and the number of conferences 
and convenings and trainings focused on juvenile justice 
issues.
    This lack of activity has been particularly concentrated 
around issues surrounding the Act and its implementation. In 
this regard, the office has shifted away from its core mission 
as established by the Act to such a significant degree that it 
has effectively disengaged from the field it is charged with 
serving.
    OJJDP first needs to refocus its efforts on youth at risk 
of becoming involved or who are already involved in the 
juvenile justice system and the Act's core protections. The 
agency also must better support States in their efforts to come 
into compliance with the Act's core requirements, including 
regularly updating regulations through a rulemaking process 
designed to obtain feedback from the States and other 
interested parties on specific implementation issues.
    Second, provide States with an updated compliance guide 
with practical, specific information on what the Act's 
provisions means for the States.
    Third, train individuals in State agencies to implement the 
Act.
    And fourth, provide specific assistance and policy models 
to overcome State barriers to implementing certain portions of 
the Act.
    With regard to these duties, the office's efforts have been 
less than fully effective. First, although the office recently 
updated its compliance guide, it is incomplete and it does not 
include provisions on the most recent legislative iteration of 
the disproportionate minority contact core protection that was 
updated back in 2002.
    Second, there seems to be a diminished capacity within 
OJJDP to work with States to train individuals and help guide 
State compliance efforts.
    Finally, the office has issued major policy changes in 
executive memos that do not abide by the Federal rulemaking 
standards. As the sole Federal agency providing leadership in 
the juvenile justice arena, it is also critical that the office 
have the capacity to perform a comprehensive set of functions, 
including gathering data; conducting and disseminating 
research; identifying and disseminating best practices; leading 
demonstration projects; providing training and technical 
assistance; and promoting the expansion of effective practices.
    However, in recent years the office has declined in both 
capacity and in stature. The agency has experienced a 
dismantling of its functions over the past 8 years, along with 
significant decline in staff and funding levels. For example, 
much of the research previously conducted by the office is now 
conducted by the National Institute of Justice.
    The juvenile justice field expressed great concern to OJJDP 
and OJP about this change, with good reason. The change has 
resulted in a less robust and targeted effort to develop new 
knowledge and disseminate new research findings to the juvenile 
justice field. I encourage both Congress and the department to 
work to restore the comprehensive nature of the agency, 
including a significant increase in resources to bolster 
expertise and capacity within the office.
    An additional area of concern is the office's apparent 
unwillingness to actively engage the field and juvenile justice 
stakeholders across the Nation, including youth, parents, 
families, advocates, researchers, policy makers, practitioners, 
and State and local governments, including State legislatures 
and governors' offices. Open and honest engagement with each of 
these groups is critically important, not only to promote 
forward movement in the juvenile justice community, but also to 
help develop expertise and align and formulate priorities at 
the Federal level.
    This type of engagement has not taken place under the 
current administration. While OJJDP has reached out to certain 
groups within the juvenile justice field, its outreach has been 
too narrow and has excluded much of the field from the work of 
the office.
    For example, the office frequently formulates positions and 
priorities at the Federal level without consulting with this 
more broadly defined field. As a result, individuals or groups 
with significant expertise in the field who have opposing views 
or differing priorities do not have input into these decisions. 
And the opportunity for the office to make fully informed 
decisions for the broader field of juvenile justice is lost.
    In addition, over the past several years, the office has 
had limited interaction with the juvenile justice field through 
the grant-making process. Under the prior administration, 
grants from OJJDP frequently went to knowledgeable and well-
respected content experts in the juvenile justice field. Some 
of those people still get those grants. However, in recent 
years, many of these very knowledgeable experts and 
organizations have seemingly been cut out of the grant-making 
process.
    OJJDP is in a unique and critically important position of 
being able to work collaboratively with juvenile justice 
stakeholders in identifying issues facing juvenile justice 
systems and formulating nationwide efforts to address them. 
However, in order to be able to carry out these tasks, the 
office must be in contact with the very diverse group of 
stakeholders representing the juvenile justice field, and it is 
not.
    Complicating the situation is that the current OJJDP 
leadership has shown a lack of transparency in how it carries 
out its responsibilities. Over the past 8 years, information 
from OJJDP has been difficult to obtain on a variety of 
issues--from which States are utilizing certain exceptions 
under the Act, to the office's current priorities.
    This lack of transparency was evident in the most recent 
OJJDP grant-making process, where several highly ranked and 
long-time productive office grant applicants were passed over 
for lower ranked applicants without a proven track record. It 
was and remains unclear why the office selected lower-ranked 
applicants, and on June 19th of this past year, the House 
Committee on Oversight and Government Reform held an oversight 
hearing on this issue.
    While the administrator has a certain amount of discretion 
in managing the office, I believe it is the administrator's 
duty to be candid and clear about the priorities of the office 
and the criteria being used to distribute taxpayers' dollars 
through its grant programs. This lack of information, including 
failing to file an annual report since 2005, and lack of 
clarity and transparency has made it difficult for OJJDP to 
effectively engage States, subject matter experts, and other 
stakeholders.
    Members of the Committee, I would be glad to answer any 
questions.
    [The prepared statement of Mr. Bilchik follows:]
                   Prepared Statement of Shay Bilchik
    Good morning Chairman Scott, Ranking Member Gohmert, and members of 
the House Judiciary Committee's Subcommittee on Crime, Terrorism, and 
Homeland Security. Thank you for inviting me here today to testify at 
this oversight hearing on the Office of Justice Programs and the Office 
of Juvenile Justice and Delinquency Prevention (OJJDP).
    My name is Shay Bilchik and I am the Founder and Director of the 
Center for Juvenile Justice Reform at the Georgetown University Public 
Policy Institute. Prior to my current position, I served as President 
and CEO of the Child Welfare League of America, the oldest and largest 
association of agencies that directly help abused, neglected, and 
otherwise vulnerable children and their families. Prior to my tenure at 
CWLA, I served as the Administrator of the Office of Juvenile Justice 
and Delinquency Prevention (``OJJDP'') at the U.S. Department of 
Justice.
                               background
    OJJDP is the agency established by the Juvenile Justice and 
Delinquency Prevention Act of 1974 (JJDPA) to lead the effort to 
address the public safety issues of juvenile justice and child and 
youth victimization. In place since 1974, OJJDP is one of several 
offices under the Office of Justice Programs (OJP) within the U.S. 
Department of Justice (DOJ). Let me begin by noting that the focus of 
my testimony today will be on those youth \1\ whose behavior has 
brought them to the attention of the justice system and not on children 
and youth who are victims of abuse, neglect, or exploitation. While 
OJJDP has a significant role in preventing and ameliorating child and 
youth victimization, and has maintained an effective focus on this 
area, that focus has not been adequately maintained on issues related 
to juvenile delinquency, including efforts to prevent the involvement 
of youth in the juvenile justice system. Unfortunately, this drift in 
OJJDP's focus comes at a critically important juncture for the juvenile 
justice field and an opportunity to drive juvenile crime to lower 
levels is being lost.
---------------------------------------------------------------------------
    \1\ The term ``youth'' is used in this testimony to describe an 
individual under the chronological age of 18 years.
---------------------------------------------------------------------------
    First, the good news: today, youth crime and delinquency in the 
United States remain near the lowest levels seen in the past three 
decades.\2\ In addition, youth commit only a small portion of the 
nation's crime.\3\ These numbers are contrary to the dire predictions 
of many ``experts,'' whose ominous warnings of a coming generation of 
``super-predators'' shocked many state legislators into abandoning the 
core principles that have guided juvenile justice systems across the 
country for the last century. Those principles, separating delinquent 
juveniles from hardened criminals, treating youth as developmentally 
different from adults, and viewing young people as being inherently 
malleable and subject to positive change in a rehabilitative setting, 
are still fundamentally sound.
---------------------------------------------------------------------------
    \2\ Recent data show a dramatic reduction in the rate and 
seriousness of juvenile delinquency over the past ten to twelve years 
with juvenile arrests dropping a staggering 24%.
    \3\ According to the FBI, youth under age 18 accounted for only 
15.4% of all arrests.
---------------------------------------------------------------------------
    In addition, in the past decade we have learned a tremendous amount 
about what works to prevent and reduce juvenile delinquency. From the 
growing body of research on the development of the adolescent brain, to 
knowledge of effective, evidence-based programs and practices, we now 
know significantly more about what works in turning these young lives 
around and correcting their behavior than we did a decade ago. 
Additionally, we have increasingly recognized the importance of 
evaluating programs in order to enhance their effectiveness and foster 
replication, and ensure that programs that don't work are no longer 
funded.
    While we celebrate these significant and positive developments, the 
juvenile justice field also faces urgent challenges, such as the over-
reliance on detention and incarceration as a response to juvenile 
crime; the continued detention of status offenders despite federal 
prohibitions; pervasive racial disparities in the justice system; and 
the increased placement of children at risk of abuse, sexual assault 
and suicide in adult jails, despite the JJDPA's intent to recognize the 
difference between youth and adults involved in the justice system. 
Every year, juvenile courts handle an estimated 1.6 million delinquency 
cases and the daily census of youth under age 18 who are incarcerated 
is 97,000. Many of these confined youth have committed non-violent 
offenses and are highly amenable to the benefits of rehabilitative 
services and supports provided in non-institutional home and community-
based settings. Additionally, some researchers estimate as many as 
200,000 youth have their cases processed in adult criminal court each 
year. As a result of increased prosecution of youth in adult criminal 
courts in the states, the number of youth in adult jails has increased 
so that, on any given day, an estimated 7,500 youth under the age of 18 
are inmates in adult jails. This data represents both the lost 
opportunity to build on the gains described above and the adoption of 
policies that according to the Centers for Disease Control and 
Prevention and OJJDP have actually contributed to increases in crime.
    In my testimony today, I will highlight six main areas of 
improvement that OJJDP should pursue: 1) realigning the agency's focus 
to the JJDPA and its core protections, 2) focusing on assistance to 
States, 3) restoring the comprehensive nature of the agency, 4) 
engaging the juvenile justice field, 5) increasing transparency, and 6) 
developing the juvenile justice workforce.
  realigning the agency's focus to the jjdpa and its core protections
    OJJDP was originally created by the JJDPA, which was first passed 
in 1974 and most recently reauthorized in 2002. The purpose of the 
JJDPA, as outlined in the legislation, is to assist State and local 
governments in preventing and encouraging accountability for juvenile 
delinquency, as well as addressing juvenile delinquency by providing 
``technical assistance, research, training, evaluation, and the 
dissemination of information on effective programs for combating 
juvenile delinquency.''
    These purposes are carried out through several grant programs to 
States overseen by the Administrator. Under Title II of the JJDPA, each 
State receives formula grant money to support activity undertaken 
pursuant to the JJDPA and to comply with its four core protections--
jail removal, sight and sound separation, disproportionate minority 
contact, and the deinstitutionalization of status offenders. If States 
are not in compliance with any one of the four core protections, a 
portion of the federal funding they receive can be withheld. In order 
to ensure the appropriate distribution of these federal funds, OJJDP 
monitors the States' compliance with the core protections.
    The focus of the JJDPA was intended to highlight issues facing 
youth who are at risk for becoming involved in or already involved in 
the juvenile justice system. Recognizing the difference between youth 
and adults, the JJDPA also created OJJDP as a separate agency to deal 
with issues facing youth involved in the juvenile justice system. 
Although the focus of the JJDPA is on the four core protections 
mentioned above, it also establishes OJJDP as the lead federal agency 
on issues being confronted by the juvenile justice field. These 
include, for example, providing guidance on research-based programs to 
prevent delinquency, conditions of confinement in juvenile facilities, 
combating substance abuse, and identifying and redirecting youth with 
mental health disorders to appropriate agencies.
    The current OJJDP has shown some focus on these types of issues. 
For example, in the next several weeks, an OJJDP grantee is holding a 
think tank to evaluate establishing a national recidivism measure. 
Unfortunately, over the past eight years, there has generally been a 
decreased level of activity and information from OJJDP in this regard, 
including the amount of research created by the Agency and the number 
of conferences and convenings focused on juvenile justice issues. This 
lack of activity has been particularly concentrated around issues 
surrounding the JJDPA and its implementation.
    As I believe any Administrator must do, OJJDP has chosen to focus 
on certain issues facing the juvenile justice field more than others. 
This prioritization is only natural given the Administrator's wide 
range of responsibilities. However, OJJDP has shifted away from its 
core mission as established by the JJDPA to such a significant degree 
that it has effectively disengaged from the field it is charged with 
serving. OJJDP needs to refocus the efforts of the office on youth at 
risk of becoming involved, or already involved in the juvenile justice 
system, and the core protections provided under the JJDPA.
                    focusing on assistance to states
    One of OJJDP's major duties is to partner with the States in 
implementing the various provisions under the JJDPA. In addition to the 
broader support and engagement of the juvenile justice field I address 
below, OJJDP does this in two ways.
    First, OJJDP is to work with States to come into compliance with 
the JJDPA's core requirements. This process is to include 1) regularly 
updating regulations through a rule-making process designed to obtain 
feedback from States and other interested parties on specific 
implementation issues, 2) providing States with an updated compliance 
guide with practical, specific information on what the Act's provisions 
mean for States, 3) training individuals in State agencies to implement 
the Act, and 4) providing specific assistance and policy models to 
States to overcome State barriers to implementing certain portions of 
the Act.
    With regard to these duties, OJJDP's efforts have been less than 
fully effective. First, although OJJDP recently updated its compliance 
guide, neither the compliance guide nor the agency's regulations 
include provisions on the most recent legislative iteration of the 
Disproportionate Minority Contact core protection, which was last 
updated in 2002. Second, there seems to be a diminished capacity within 
OJJDP to work with the States to train individuals and help guide State 
compliance efforts. Finally, OJJDP has issued major policy changes in 
executive memos that do not abide by federal rule-making standards. For 
example, OJJDP recently issued guidance on changes as to who could be 
considered an adult inmate, which restricted States from keeping youth 
convicted in adult court in juvenile facilities up to the State's 
permitted extended age of juvenile jurisdiction. This guidance came to 
States in memo form and gave States three years to comply, yet there 
was no public notice or dialogue between the agency and the States.
    OJJDP's second duty related to the JJDPA is to work with the States 
to ensure they remain in compliance with the JJDPA. In this light, 
OJJDP should be partnering and working closely with the States to 
ensure that compliance monitors are in place in each State with the 
capacity to effectively determine the State's compliance with the 
conditions placed on receiving juvenile justice funding--and address 
problems as they arise. This need for compliance is especially 
important for the youth served by the JJDPA. For example, the jail 
removal core protection requires that youth in the juvenile justice 
system be kept out of adult jails and lock-ups except in very narrow 
circumstances. One of the reasons for this provision is that youth are 
36 times more likely to commit suicide in an adult jail than in a 
juvenile detention facility, particularly when they first arrive at an 
adult facility.
    OJJDP should also be clear and timely in informing States when they 
are out of compliance with the Act. Unfortunately, in this realm, OJJDP 
again falls short in assisting States. Compliance monitors are 
currently required to visit sites or facilities that fall under the 
JJDPA at least once every three years, but are not required to monitor 
each facility or site every three years. This pattern can, and does, 
result in a nine-year gap between visits to a particular facility--the 
time for a youth to go from age 10 to 19. Additionally, it is not 
always clear--either to States or to the public--which States are or 
are not in compliance with the JJDPA and which States are meeting de 
minimus requirements or going above and beyond the requirements listed 
in the Act. Finally, OJJDP has in two ways been inconsistent in 
determining whether States are in compliance with the Act. First, the 
responsibility for determining State's compliance has been changed 
frequently. Second, as these staff changes have taken place, the 
criteria used and how the compliance determination is made, has also 
changed. This has left some States in the difficult situation of making 
a good-faith effort to comply with the Act, but having to meet changing 
standards of what constitutes compliance.
    Some of the difficulties OJJDP has experienced in helping States 
comply with the Act stem from a lack of resources. In the last 7 seven 
years, federal juvenile justice funding has decreased by 60% and the 
OJJDP operating budget has been reduced 90%--from $7 million in FY01 to 
only $700,000 in FY08. This decrease in juvenile justice appropriations 
is a major concern, but its impact has been exacerbated by OJJDP not 
directing a more significant portion of its remaining resources towards 
the compliance needs of the States. I would strongly urge OJJDP to more 
actively partner with the States around compliance issues and make 
providing support to the States as they work to implement the 
provisions of the JJDPA a more significant priority--and request the 
appropriations it needs to fulfill the purposes on the Act.
            restoring the comprehensive nature of the agency
    As the sole federal agency providing leadership in the juvenile 
justice arena, it is critical that OJJDP have the capacity to provide a 
full range of services needed to carry out the roles discussed above. 
This requires that OJJDP be able to perform a comprehensive set of 
functions, including conducting research and gathering data, 
identifying and disseminating best practices and relevant information, 
leading demonstration projects, providing training and technical 
assistance, and promoting the expansion of effective practices in the 
field. Empowering OJJDP with the ability to perform these functions is 
essential within an organizational entity as diverse in focus as those 
found within DOJ as a whole.
    However, in recent years OJJDP has declined in both capacity and 
stature. The Agency has experienced a dismantling of its functions over 
the past eight years, along with a significant decline in both staff 
and funding levels. This change has been reflected in many of the areas 
in which OJJDP formerly had expertise being moved to other agencies 
within OJP. For example, much of the research previously conducted by 
OJJDP is now conducted by the National Institute of Justice. The 
juvenile justice field expressed great concern to OJJDP and OJP about 
this change. That concern has proven to be well founded, as it has 
resulted in a less robust and targeted effort to develop new knowledge 
and disseminate new research findings to the field.
    Finally, the past several Presidential budgets have called for the 
consolidation and significant reduction of funding for juvenile justice 
programs supported by the federal government. If enacted, this approach 
would create a single, discretionary grant program providing less 
support to the states and local communities than currently provided. 
This is yet another example of how the current OJJDP has turned away 
from both the young people and the field it was created to serve. This 
consolidated grant program would also take money from specific grant 
programs designed to address a range of critical, but specific issues 
and allow these grants to be distributed for use in targeting a wide 
variety of issues. This goes directly against the authorization and 
creation of these specific grant programs, which were designed to 
address specifically identified juvenile justice issues of importance 
to the juvenile justice field.
    I encourage both Congress and the Department of Justice to work to 
restore the comprehensive nature of the agency, including investing 
significant resources to bolster expertise and knowledge in the agency 
itself. This investment would help to solve many of the issues 
identified above by reinvigorating the office and rebuilding the 
capacity that established OJJDP in previous years as a pre-eminent 
federal agency--one well equipped to serve juvenile justice 
stakeholders and the public.
                  engaging the juvenile justice field
    An additional area of concern is OJJDP's apparent unwillingness to 
actively engage the field and juvenile justice stakeholders across the 
nation. When I refer to the juvenile justice field, I am referring to a 
broad range of groups, including youth, parents, families, advocates, 
researchers, policymakers, practitioners, and State and local 
governments, including State legislatures and Governor's offices. The 
open and honest engagement with each of the groups is critically 
important--not only to promote forward movement in the juvenile justice 
community, but also to help develop expertise and align and formulate 
priorities at the federal level.
    This type of engagement has not taken place under the current 
Administration. While OJJDP has reached out to certain groups within 
the juvenile justice field, this outreach has been too narrow in 
nature. In essence, the current Administration has redefined the 
juvenile justice field in such a limited way, that much of it has been 
excluded from the work of the office. For example, OJJDP frequently 
formulates positions and priorities at the federal level without 
consulting with this more broadly defined field. As a result, 
individuals or groups with significant expertise in the field who have 
opposing views or differing priorities do not have input into these 
decisions and the opportunity for OJJDP to make fully informed 
decisions is lost.
    In addition, over the past several years, OJJDP has limited 
interaction with the juvenile justice field through the grant-making 
process. Under the prior Administration, grants from OJJDP frequently 
went to knowledgeable and well respected content experts in the 
juvenile justice field. These organizations were entrusted to provide 
research and other forms of support to OJJDP, assisting it in moving 
the juvenile justice community forward. These relationships, if 
reestablished, would help to re-grow the expertise of this critically 
important office. However, in recent years, many of these very 
knowledgeable experts and organizations have seemingly been cut out of 
the grant making process.
    OJJDP is in the unique and critically important position of being 
able to work collaboratively with juvenile justice stakeholders in 
identifying issues facing juvenile justice systems and formulating 
nation-wide efforts to address them. However, in order to be able to 
carry out these tasks, OJJDP must be in contact with a very diverse 
group of stakeholders representing the juvenile justice field. That 
work should have been ongoing over the past eight years. It must 
certainly be renewed immediately.
                        increasing transparency
    As indicated above, a major concern under the current OJJDP 
leadership is the lack of transparency in how the office carries out 
its responsibilities. Over the past eight years, information from OJJDP 
has been difficult to obtain on a wide variety of issues--from which 
States are utilizing certain exceptions under the JJDPA to OJJDP's 
current priorities. For example, last year, OJJDP began working on a 
juvenile justice initiative focusing on the health needs of youth in 
the juvenile justice system. In partnership with the U.S. Surgeon 
General's office, OJJDP invited experts for an all-day program on March 
9, 2007 to discuss this issue and explore ways to improve the system. 
Throughout this meeting the Surgeon General expressed concern about the 
issue and made a commitment to determine ways to better provide health 
care for youth in the system. However, OJJDP later issued a document 
stating that health care in juvenile justice facilities was not an 
issue of concern. This document clearly contradicted both the results 
of the summit and the Surgeon General's commitment to address this 
issue.
    This lack of transparency also was evident in the most recent OJJDP 
grant making process, where several highly ranked and long-time, 
productive OJJDP grant applicants were passed over for lower-ranked 
applicants without a proven track record. Throughout the process, it 
was unclear why OJJDP selected lower-ranked applicants and on June 19, 
2008, the House Committee on Oversight and Government Reform held an 
oversight hearing to examine the entire process.
    While I understand that the Administrator has a certain amount of 
discretion in managing OJJDP, I believe it is the Administrator's duty 
to be candid and clear about the priorities of the office and the 
criteria being used to distribute taxpayer's dollars through its grant 
programs. This lack of information, clarity and transparency has made 
it difficult for OJJDP to effectively engage States, subject matter 
experts, and other stakeholders, thereby limiting the input they 
otherwise would provide.
    Finally, under the JJDPA, the OJJDP Administrator is required to 
submit an annual report to Congress. This report must contain annual 
data on youth involved in the juvenile justice system, as well as how 
the funds under the Act are being spent, whether the State's plan is in 
compliance with the Act, and an evaluation of the programs funded under 
the JJDPA and their effectiveness in reducing the incidence of juvenile 
delinquency, particularly violent crime, committed by juveniles. 
However, since 2005, OJJDP has not issued this annual report. The 
failure of the office to provide this annual ``status report'' has 
inhibited the ability of Congress and other interested parties to 
understand and assess the activities and priorities pursued by OJJDP 
over the past year.
    I strongly encourage the OJJDP Administrator to take immediate and 
concrete steps to increase the agency's transparency. These steps could 
include making documents such as JJDPA State plans and OJJDP's grant 
making documents publicly available on the agency's website. In 
addition, Congress should conduct oversight to ensure that OJJDP 
submits its required annual report.
               developing the juvenile justice workforce
    The final area of focus I encourage OJJDP to pursue, is the 
juvenile justice workforce. It is this workforce that carries out the 
intent of the JJDPA and the work undertaken each day with our youth in 
the system. It is a group of dedicated, but too frequently poorly 
supported workers--intake, caseworker, court, probation and parole, 
detention and correctional facility, as well as legal and judicial 
staff. This workforce is spread across public and private agencies 
(private agencies contract with states and localities to carry out the 
state and local public agencies' responsibilities).
    We have seen a poor track record in the recruitment and retention 
of this staff, similar to what we have seen in other child serving 
areas, such as child welfare. They too often are paid too little, 
inadequately trained, given too few of the tools they need to do their 
work, poorly supervised and given unreasonably high workloads. Efforts 
need to be made through the JJDPA to further support and 
professionalize this workforce. This can de done through adoption of 
programs that support workforce development in partnership with the 
states, as is done in child welfare through Title IV-E. This would 
allow for the development of State agency/university partnerships to be 
partially federally supported in providing entry level and in service 
training for juvenile justice staff. It would also allow for 
recruitment partnerships between state agencies and universities to 
help identify and support the development of a career track for 
students interested in working with youth and families involved in the 
juvenile justice system. This career track would include internship 
experience and tuition subsidies for any student who commits to work in 
a juvenile justice agency within the state for a minimum period of 
time. Time and again we hear from young people in the juvenile justice 
system who succeed in turning away from crime, that what made the 
difference was a connection to a person in the system--a caseworker, 
probation officer, lawyer, or judge, who had a profound impact on their 
life. While the juvenile justice system certainly needs to utilize 
research-based programs and practices, it also needs a strong workforce 
to implement those programs in order to be successful. This workforce, 
plagued by heavy workloads and high turnover rates, needs to be better 
supported to do its life changing work. When we think of the severe 
problems recently plaguing the juvenile correctional system, e.g. in 
Texas, California and Indiana, we can better understand how 
strengthening the workforce is a key strategy to safeguarding our 
youth.
                       summary of recommendations
    In summary, I provide the following recommendations related to the 
operations of OJJDP:

        <bullet>  Enhance OJJDP's focus on the implementation of the 
        JJDPA and its core requirements;

        <bullet>  Significantly increase OJJDP's support to States to 
        come into and stay in compliance with the JJDPA, including the 
        provision of additional training and technical assistance;

        <bullet>  Restore the expertise and capacity of OJJDP to carry 
        out the broad range of tasks it is required to perform;

        <bullet>  Actively engage the wide range of individuals, 
        organizations, and entities with expertise in the juvenile 
        justice field to support OJJDP in establishing its positions 
        and priorities and in carrying out its responsibilities;

        <bullet>  Significantly increase the transparency of OJJDP with 
        the juvenile justice field and the public;

        <bullet>  Take concrete steps to strengthen the juvenile 
        justice workforce so it is better equipped to serve the youth 
        in its care and provide for the public's safety.

    The adoption of these recommendations would contribute 
significantly to strengthening OJJDP and improving our nation's 
juvenile justice system. The improvements that would flow from them 
would not only provide much-needed help to youth and families 
struggling in the system every day, but benefit society as a whole by 
helping to reduce juvenile delinquency and putting our most challenged 
and challenging young people on a path to becoming law abiding and 
contributing members of our society. Ensuring that these 
recommendations are adopted, therefore, is essential--and doing so will 
require strong leadership at OJJDP and oversight from Congress.
    Chairman Scott, Ranking Member Gohmert, and Members of the 
Committee, thank you again for the opportunity to provide input on the 
operation of this vitally important federal agency. I look forward to 
working with the Committee through the Center for Juvenile Justice 
Reform at Georgetown University as your work proceeds.

    Mr. Scott. Thank you.
    Do you have any questions you would like to ask Mr. Bilchik 
at this point?
    Mr. Gohmert. Well, I am curious. I agree with you, there 
needs to be a good deal more transparency. But I am curious. I 
mean, you come down pretty hard on the agency, and yet you note 
in your own statement that delinquency in the U.S. remains near 
the lowest levels in three decades. Do they get any credit at 
all, any modicum of----
    Mr. Bilchik. Sure they do. I think they have done a lot of 
good work. The problem I have, Mr. Gohmert, is that I am 
looking at taking juvenile crime down even lower. And so, when 
we hit 2000, 2001, we had seen this tremendous decrease in 
juvenile crime. We had a chance, if the office kept its eye on 
the ball, of driving it even lower. And it has just taken its 
eye off the ball.
    It has moved its focus in different directions and hasn't 
listened to the field and said, ``Wait a second. We have gotten 
good results. Why wouldn't we continue them?''
    Mr. Gohmert. Your statement obviously--your written 
statement is a lot longer and you give us more information. But 
is there something you could point to specifically where they 
have had success, so maybe that is an area we can build as 
well?
    Mr. Bilchik. Sure. I would like to comment on that.
    I think in the area of gangs, I think the office has stayed 
focused. I think they have tried to build on the prior research 
and the demonstration programs that took place. And I think the 
office should be commended for that kind of work.
    I think they are trying to convene some work around 
measurements of recidivism, and that is also good work. But we 
need to take that and multiply it about 20-fold to get the kind 
of robust agenda this office should reflect in representing the 
juvenile justice field.
    Mr. Gohmert. Anything else you would like to add? With 
regard to the transparency, you see the difficulty we have in a 
hearing like this, where we get 5 minutes to ask questions. And 
it is not exactly a difficult grilling when you are limited to 
5 minutes.
    Mr. Bilchik. I agree with you.
    Mr. Gohmert. We appreciate any further written input you 
might have, suggestions, and----
    Mr. Bilchik. I found, Mr. Gohmert, that when I was 
appearing as a witness, the best way that you got information 
from me when I was in charge of the office was through your 
follow-up questions. Because it gave you a chance to explore 
these issues in greater depth and really cultivate that kind of 
dialogue with the office.
    Mr. Gohmert. You are talking about questions in writing----
    Mr. Bilchik. Yes.
    Mr. Gohmert. I agree. It is our most effective way of 
getting information. If we get responses.
    Mr. Bilchik. I guarantee you I responded very promptly to 
those questions with the--fear of God.
    Mr. Scott. Professor Bilchik, is there a consensus in the 
juvenile justice community as to appropriate strategies to 
reduce gang violence?
    Mr. Bilchik. I think there is a growing consensus around 
gang prevention and gang intervention. And it really is 
reflecting a balanced approach. I think there have been some 
very good efforts undertaken--in Boston a number of years ago, 
recently in Chicago--balancing a crime suppression approach 
with a prevention approach.
    So if we are going to lock up the gang leaders, we need to 
pull away the middle-range, lower-range gang members into 
positive activity. You don't have to have that balance in 
attacking gangs--and this is what the research has shown--there 
was a great work in Boston done 8, 9 years ago through the 10-
Point Coalition.
    Go into the street. Make sure you are working with law 
enforcement, U.S. attorneys, local prosecutors. Lock up the 
gang leaders. But give those other gang members something to 
turn to.
    And then the wannabes at the front end of the system, give 
them prevention programs that they can turn to. Gangs turn a 
positive youth development frame on its head. They give skills; 
they give opportunities to use skills; and they give 
recognition and safety. We as a society need to do that for our 
youngest members of the community who might turn to gangs.
    Mr. Scott. Within the community, I am sure the community 
recognizes that we already lock up more people in the United 
States than anywhere on earth, and some communities it is 10, 
20 and 40 times higher than the international average. Is there 
any other people in the juvenile justice community that think 
we are not locking up enough people?
    Mr. Bilchik. I imagine there are an isolated few who 
believe we should be locking up more. The consensus opinion is 
that we are locking up too many, that we are locking up mid-
level offenders who do not need to be put into institutions and 
could be treated in community-based programs. And we should be 
saving those institutional beds for the very worst offenders.
    This goes back to your question, Mr. Scott, about 
transfers, and the thought that somehow if we transferred 
enough kids who were the bad kids into the criminal justice 
system, we would reduce crime.
    And the research is clear--from the Centers for Disease 
Control and, a recent report issued by OJDDP itself, another 
thing for them to be commended about--that if you transfer 
young people into the criminal justice system, you will 
accelerate recidivism, it will happen with more serious crime 
and more frequent. This is the trifecta of bad criminal justice 
policy. That is strong research with clear findings.
    Mr. Scott. And if we increase the number, we would be 
talking about the marginal ones that are not now treated as 
adults, which would be a virtual certainty that you would 
increase the violent crime rate.
    Mr. Bilchik. I believe so. I sit here as an ex-prosecutor 
for 16 years. I know what those most horrific offenders look 
like, and I know that we need to protect our communities from 
them. But there are far too many people in those beds.
    Mr. Scott. And in just about every community already, those 
kinds of offenders are already treated as adults.
    Mr. Bilchik. Many of them are treated as adults, Mr. Scott, 
and yet then the juvenile justice system in many communities 
has been set up in a way with extended jurisdiction to also 
work with those young people.
    Mr. Scott. Thank you.
    Mr. Gohmert. You had mentioned the security, safety 
training that so many in gangs get from the gangs, and I have 
heard in so many criminal cases when you get down to 
sentencing, ``This is my family. I have no father. They took me 
in. They made me feel like I had a family.'' So aren't there 
other socioeconomic factors that come into play that are not 
necessarily addressed by the Justice Department or any agency 
below that?
    I know 40-plus years ago, Congress felt sorry for poor 
single women trying to raise kids with deadbeat dads. So we 
started giving them checks. And so for 40 years we paid people 
to just have as many kids as you can out of wedlock, and it 
seems that there are conditions there that we have helped spurn 
that perhaps might need looking at as well.
    Mr. Bilchik. I think you raise a really excellent point. 
One of the hallmarks of the office in the 1990's and continuing 
to a certain degree more recently is the work around risk and 
protective factors, and the cause and correlates research that 
the prior witness talked about. You can't attack this problem 
in a silo. You need to be working with--and the office has 
worked with the educational system, the child welfare system, 
the social services system--that all those systems have to use 
that approach and work together.
    The office, through its Title V program and through that 
cause and correlates research, traditionally has invested 
resources in how to use that multi-system stakeholder group in 
attacking those issues way upstream. The office is to be 
credited for that.
    But as we mention the cause and correlates, when I talk to 
the cause and correlates researchers, they are telling me that 
their resources from the office are being diminished, that they 
are being phased out. And that is taking the eye off the ball 
and not getting the work done the right way.
    Mr. Gohmert. Thank you, Professor.
    Thank you, Chair.
    Mr. Bilchik. Thank you.
    I apologize to people for hijacking the agenda here and 
going first.
    Mr. Scott. We resume with Mr. Piper.

STATEMENT OF BILL PIPER, DIRECTOR, OFFICE OF NATIONAL AFFAIRS, 
          DRUG POLICY ALLIANCE NETWORK, WASHINGTON, DC

    Mr. Piper. Thank you.
    I would like to talk broadly about some of the structural 
and institutional problems with the Byrne JAG program. The 
Byrne program is set up in a way that unintentionally rewards 
failure. Byrne grants are distributed to States in part based 
on whether or not their crime rates are increasing.
    Now this makes sense intuitively, because it is based on 
need, but it also turns a merit on its head. States that fail 
to enact effective crime prevention policies are actually 
rewarded with more money the following year, while States that 
adopt effective policies that reduce crime are punished by 
losing Federal aid.
    Moreover, many of the program's performance measures are 
inadequate, measuring largely bureaucratic statistics, such as 
how many specialized gang units are in operation, how many 
warrants are being served, how many people are being arrested, 
et cetera. And this ignores effectiveness and creates 
incentives for States just to play a numbers game.
    This is especially the case when it comes to drug law 
enforcement, where law enforcement officers can be placed under 
enormous pressure to arrest as many people as possible, as 
quickly as possible, even if it is just for minor drug 
offenses. Or incentive structures combined with pressure from 
elected officials creates an environment in which focusing on 
major traffickers is difficult, while focusing on lower-level 
or non-violent drug offenders is encouraged.
    Additionally, counter-productive performance measures can 
lead some officers to cut constitutional corners. We have seen 
scandal after scandal of good officers doing bad things, in 
part to meet formal or informal warrant and arrest quotas. 
Fabricating--raiding homes to false evidence, lying to judges, 
planting evidence--for instance, the rush to make a quick 
arrest and seizure led to the shooting death of 92-year-old 
Katherine Johnson in Atlanta last year. I know the Subcommittee 
had hearings on that scandal earlier this year.
    Now, this incentive structure is troubling where talking 
about city, State and Federal law enforcement. It is especially 
troubling when it comes to regional narcotics tasks forces. 
Their cross-jurisdictional operations and ability to perpetuate 
themselves through acts of forfeiture and Byrne funding make 
them less accountable to local taxpayers and governing bodies.
    The most notorious Byrne task force-related scandal, of 
course, is the Tulia, Texas scandal, where dozens of African 
American residents were arrested and wrongfully sentenced to 
decades is prison, even though the only evidence against them 
was the uncorroborated testimony of one white undercover 
officer with a history of lying.
    In Herne, Texas, the judge found that a regional narcotics 
task force that was Byrne-funded routinely targeted innocent 
African Americans as part of an effort to drive Blacks out of 
the majority White town. Both of these scandals are somewhat 
dated, but they remain powerful symbols of a Byrne grant system 
that is yet to be reformed, and also both subjects of major 
motion pictures that will be in theaters soon.
    In the wake of numerous Byrne-related scandals, Texas 
implemented a set of reforms that are models for Federal 
reform. The State eliminated all Byrne grant funding to a 
regional narcotics task force, passed legislation prohibiting 
anyone from being convicted of a drug offense based solely on 
the uncorroborated word of an undercover informant, and adopted 
new statewide performance measures.
    Instead of grading narcotics officers on how many warrants 
they serve and how many people they arrest, Governor Peary is 
grading them on how well they disrupt and dismantle dangerous 
crime organizations. Gathering intelligence and building 
connections takes a precedent over arresting low-level 
offenders.
    The Texas Department of Public Safety reports that drug 
arrests have fallen by more than 40 percent, but their drug 
seizures have more than doubled. Congress should work with the 
Office of Justice programs to develop similar performance 
measures for Byrne-funded operations. I would recommend that it 
also pass H.R. 253, the No More Tulias Act, which would 
encourage States to adopt some of the Texas reforms.
    At a minimum, Congress should require any local or State 
law enforcement entity receiving Byrne money to document its 
arrests and traffic stops by race and ethnicity. But also it 
would be extremely useful to researchers if Congress created a 
searchable public database detailing where exactly Byrne grant 
money is going and what it is being used for. This could be 
similar to the earmark database that Congress has created.
    Finally I would just add that Congress should set a new 
bottom line for U.S. drug policy more broadly. One way of doing 
that would be requiring Federal agencies to set short and long-
term objectives to reduce the problems associated with both 
drugs and punitive drug policies. So to get at looking at both 
reducing drug use and drug overdoses and HIV AIDS from 
injection drug use, but also get at reducing racial disparity, 
the number of people who can't vote because of felony 
conviction, etc.
    Thank you.
    [The prepared statement of Mr. Piper follows:]
                    Prepared Statement of Bill Piper
                              introduction
    The Edward Byrne Memorial Justice Assistance Grant Program was 
created in 1988 in a slightly different form, and under a slightly 
different title, to provide federal crime prevention grants to states. 
It was named in memory of Edward Byrne, a New York City police officer 
gunned down by thugs. The program has provided billions of dollars to 
local and state law enforcement, as well as drug courts, juvenile 
justice programs, and other crime prevention initiatives. In recent 
years, however, the Byrne Grant Program has been criticized from groups 
across the political spectrum.
    Sentencing reform advocates have accused it of fueling the rapid 
growth in the number of nonviolent Americans behind bars, and note that 
as long as states do not have to pay the full cost of their criminal 
justice system they will never have to consider alternatives to 
incarceration. Civil rights leaders warn that the Byrne Grant Program 
is perpetuating racial disparities and civil rights abuses. A growing 
number of critics on both the left and right question why the federal 
government is paying for day-to-day local law enforcement activities 
that states could pay for themselves while other federal needs, such as 
health care and border security, go underfunded.
    Dozens of civil rights and criminal justice reform groups have 
urged Congress to reform the Byrne Grant Program, including the ACLU, 
the Brennan Center, the National Association of Blacks in Criminal 
Justice, the National Black Police Association, NAACP, and National 
Council of La Raza. At least four leading conservative organizations 
want to go further and completely eliminate the program, including the 
American Conservative Union, Americans for Tax Reform, Citizens against 
Government Waste, and the National Taxpayers Union.
    The Bush Administration has been extremely successful in cutting 
funding to the program, slashing it by hundreds of millions of dollars. 
There is a bipartisan consensus in Congress, however, that these cuts 
have been far too steep and come far too quickly, and momentum is 
building to completely restore funding to the program. Given the state 
of the federal budget, it may be impossible to significantly increase 
funding to the program any time soon. In any event, it is imperative 
that Congress pass legislation fixing the program's many faults. 
Because of the size of the Byrne Grant program and the number of local 
and state law enforcement agencies that depend on it, Congress has an 
enormous opportunity to use the program to bring about change across 
this country.
 general problems with federal law enforcement subsidies to the states
    Some of the Byrne Grant Program's problems stem from inherent 
problems with federal subsidies to local and state law enforcement. For 
instance, a recent report by the Justice Policy Institute (JPI), titled 
``The Vortex: The Concentrated Racial Impact of Drug Imprisonment and 
the Characteristics of Punitive Counties'', found that the more money 
counties had to spend on law enforcement the more nonviolent drug 
offenders they imprisoned, and the more likely it was that those 
imprisoned were disproportionately people of color.
    Greater county jail admission rates for drug law offenses were 
associated with how much was spent on policing and the judicial system, 
higher poverty and unemployment rates, and the proportion of the 
county's population that is African American. These relationships were 
found to be independent of whether the county actually had a higher 
rate of crime or drug use. For example, although Rockingham County, NH, 
has a larger percent of its population reporting illicit drug use, 
Jefferson Parish, LA, sent more people to prison for a drug offense at 
a rate 36 times that of Rockingham.
    Phillip Beatty, co-author of the JPI study, concluded: ``Laws--like 
drug laws--that are violated by a large percentage of the population 
are particularly prone to selective enforcement. The reason African 
Americans are so disproportionately impacted may, in part, be related 
to social policy, the amount spent on law enforcement and judiciary 
systems, and local drug enforcement practices.''
    The United States ranks first in the world in per capita 
incarceration rates, with 5% of the world's population but 25% of the 
world's prisoners. The U.S. locks up more of its citizens on a per 
capita basis than China, Cuba, Mexico, Russia or any other country in 
the world. The racial disparities are even more startling. Black 
Americans are incarcerated at a rate approximately six times greater 
than that of whites. The U.S. now incarcerates more black men on a per 
capita basis than South Africa at the height of Apartheid. Congress 
should have hearings examining what role, if any, federal funding has 
played in driving overincarceration, and how federal grant programs can 
be used to encourage alternatives to incarceration and reduce racial 
disparities.
  structural problems with the byrne justice assistance grant program
    There are at least three structural and institutional problems with 
the Byrne Grant Program:
Creating an Unhealthy Culture of Dependence
    The program was established to provide four-year grants to 
encourage innovation. For example, Dallas' first drug court was paid 
for with a Byrne grant; then the county took over the funding of the 
program when the grant ran out. Narcotics task forces, however, were 
never subject to the four-year limit, and the limit was eliminated for 
all programs in the last Congress. It is worth investigating whether 
that was a good idea. Criminal justice decisions on which crimes to 
prioritize and which crime prevention strategies to utilize should be 
based on what is best for public safety and not what is needed to 
continue receiving federal money.
Rewarding Failure
    Byrne grants are distributed to states, in part, based on whether 
or not crime rates are increasing. This has intuitive appeal because it 
is based on need, but it turns merit on its head. States that fail to 
enact effective crime prevention policies are rewarded with more money, 
while states that adopt effective policies that reduce crime are 
punished by losing federal aid.
    Perpetuating Poor Performance Measures
    The performance measures the Office of Justice Programs uses to 
judge the Byrne Grant Program are troubling and in many ways counter-
productive. Some make sense, like computing how many offenders 
successfully complete alternative to incarceration programs. Most, 
however, measure bureaucratic statistics like how many new gang units 
are in operation, how many warrants are being served, and how many 
people are being arrested. These criteria not only fail to measure 
effectiveness, they provide dangerous incentives for states to play a 
numbers game.
    This is especially the case when it comes to drug law enforcement. 
Because the amount of funding that narcotics task forces receive is 
often formally or informally based on how many people they arrest, 
individual officers are under enormous pressure to make a large number 
of arrests, even if they are just for minor offenses. In fact, 
narcotics task forces that focus on major traffickers actually risk 
losing federal funding because they have fewer arrests to report than 
those that focus on low-level offenders who are easier to catch and far 
more plentiful.
    The FBI's 2007 Crime in the United States Report, released this 
week, found that law enforcement made more than 1.8 million drug 
arrests last year. 83% of those arrests were for simple possession. 
775,000 were for nothing more than possession of small amounts of 
marijuana for personal use. These arrests pad the official reports, but 
do nothing to stop major traffickers or reduce the problems associated 
with substance abuse.
    This perverse incentive structure also encourages law enforcement 
officers and informants to cut constitutional corners. We see in 
scandal after scandal good officers doing bad things to meet warrant 
and arrest quotas. Fabricating informants, raiding homes on false 
evidence, lying to judges, and planting evidence--anything to increase 
the numbers.
    For instance, look at the recent shooting death of 92-year-old 
Kathryn Johnston in Atlanta. Blinded by misinformation that her house 
contained illegal drugs, police officers fabricated evidence to obtain 
a warrant, shot and killed her in a botched military-style raid, and 
then planted drugs when they realized she was innocent. Federal 
prosecutor David Nahmias told The New York Times:

        ``The [Atlanta] officers . . . were not corrupt in the sense 
        that we have seen before. They are not accused of seeking 
        payoffs or trying to rob drug dealers or trying to protect gang 
        members. Their goal was to arrest drug dealers and seize 
        illegal drugs, and that's what we want our police officers to 
        do for our community. But these officers pursued that goal by 
        corrupting the justice system, because when it was hard to do 
        their job the way the Constitution requires, they let the ends 
        justify their means.''

    Corrupting the justice system, however, is what happens when 
policymakers tie budgets, promotions, and salaries to statistics like 
arrests and seizures. As the plea agreement in this case made clear, 
the Atlanta officers cut corners in order to ``be considered productive 
officers and to meet [the agency's] performance targets.'' This is a 
story one hears in state after state. It is not publicly known if 
Atlanta used federal Byrne Grant money to pay for the raid, but bad 
performance measures have become widespread and are generally 
instituted from the top down.
                     regional narcotics task forces
    In addition to looking at structural problems with the Byrne Grant 
Program, Congress should look at the problems associated with some of 
the entities it funds. In particular, it should hold hearings on the 
program's funding of hundreds of regional narcotics task forces around 
the country. These task forces, which lack very little state or federal 
oversight and are prone to corruption, are at the center of some of our 
country's most disturbing law enforcement scandals. Connecting these 
task forces to HIDTAS or other regulated entities might significantly 
reduce the problems associated with them.
    The most notorious Byrne-funded scandal occurred in 1999 in Tulia, 
Texas where dozens of African-American residents (representing nearly 
half of the town's adult black population) were arrested, prosecuted 
and sentenced to decades in prison, even though the only evidence 
against them was the uncorroborated testimony of one white undercover 
officer with a history of lying and making racial epithets. The 
undercover officer worked alone, and had no audiotapes, video 
surveillance, or eyewitnesses to corroborate his allegations. 
Suspicions arose after two of the defendants were able to produce firm 
evidence showing they were out of state or at work at the time of the 
alleged drug buys. Texas Governor Rick Perry eventually pardoned the 
Tulia defendants (after four years of imprisonment), but these kinds of 
scandals continue to plague the Byrne grant program.
    In another Byrne-related scandal, a magistrate judge found that a 
regional narcotics task force in Hearne, Texas routinely targeted 
African Americans as part of an effort to drive blacks out of the 
majority white town. For the past 15 years, the Byrne-funded task force 
annually raided the homes of African Americans and arrested and 
prosecuted innocent citizens. The county governments involved in the 
Hearne task force scandal eventually settled a civil suit, agreeing to 
pay financial damages to some of the victims of this discrimination.
    While both of these Texas scandals are somewhat dated, they remain 
powerful symbols of a failed system that has yet to be reformed. They 
are also both subjects of major motion pictures that will soon be in 
theaters across the country. Oscar-winning actress Halle Berry is 
starring in a feature film based on the Tulia, Texas scandal, currently 
being produced by Lionsgate Films. Uncommon Productions recently 
completed a feature film titled ``American Violet'' that is loosely 
based on the Hearne scandal, and stars Oscar-nominated Alfre Woodard.
    These scandals are not the result of a few ``bad apples'' in law 
enforcement; they are the result of a fundamentally flawed bureaucracy 
that is prone to corruption by its very structure. Byrne-funded 
regional narcotics task forces are federally funded, state managed, and 
locally staffed, which means they do not really have to answer to 
anyone. In fact, their ability to perpetuate themselves through asset 
forfeiture and federal funding makes them unaccountable to local 
taxpayers and governing bodies.
    The Criminal Jurisprudence Committee of the Texas House of 
Representatives is one of the few governing bodies to examine Byrne-
funded regional narcotics task forces and why they are so engulfed in 
scandals. After comprehensive hearings, the Committee concluded that 
the state should cut off all state and federal funding to the task 
forces because they are inherently prone to corruption. The Committee 
reported, ``Continuing to sanction task force operations as stand-alone 
law enforcement entities--with widespread authority to operate at will 
across multiple jurisdictional lines--should not continue. The current 
approach violates practically every sound principle of police oversight 
and accountability applicable to narcotics interdiction.''
    A 2002 report by the ACLU of Texas identified seventeen scandals 
involving Byrne-funded anti-drug task forces in Texas, including cases 
of falsifying government records, witness tampering, fabricating 
evidence, stealing drugs from evidence lockers, selling drugs to 
children, large-scale racial profiling, sexual harassment, and other 
abuses of official capacity. Recent scandals in other states include 
the misuse of millions of dollars in federal grant money in Kentucky 
and Massachusetts, false convictions based on police perjury in 
Missouri, and making deals with drug offenders to drop or lower their 
charges in exchange for money or vehicles in Alabama, Arkansas, 
Georgia, Massachusetts, New York, Ohio, and Wisconsin.
                      the texas reform initiative
    In the wake of numerous Byrne-related scandals, the Texas 
Legislature and Texas Governor Rick Perry (R) implemented a set of 
reforms that are reducing racial disparities, police corruption, and 
the number of nonviolent offenders behind bars, while attacking major 
crime and making Texas safer. The state banned racial profiling, 
reformed its asset forfeiture laws, established alternatives to 
incarceration, eliminated Byrne Grant funding to regional narcotics 
task forces, passed legislation prohibiting anyone from being convicted 
of a drug law offense based solely on the uncorroborated word of an 
undercover informant, and adopted new statewide performance measures 
for judging the effectiveness of drug law enforcement.
    Instead of grading narcotics officers on how many warrants they 
serve and how many people they arrest, the Perry Administration is 
grading them on how well they disrupt and dismantle dangerous crime 
organizations. Gathering intelligence and building connections takes 
precedent over arresting low-level offenders. Drug arrests have fallen 
by more than 40%, but drug seizures have more than doubled. The state 
is reportedly moving closer to its goal of taking down the top Texas 
``gatekeepers'' to the major drug cartels.
    Testifying in front of this subcommittee in 2007, Texas Department 
of Public Safety representative Patrick O'Burke described the Texas 
Reform Initiative this way: ``To define success by measuring only the 
sheer volume of arrests would mean that more arrests would equate with 
greater achievement. This clearly does not move towards the goal of 
crime reduction. Arrest numbers also do not attach any quality to that 
work product when the arrest of one drug user equals the arrest of one 
drug `kingpin'.''
    The new drug law performance measures adopted by the Perry 
Administration are relatively simple. The state defined a drug 
trafficker as a person who works to illegally sell drugs with profit or 
income as the primary motivation. A Drug Trafficking Organization (DTO) 
was then defined as five or more drug traffickers who work to illegally 
sell drugs outside of their immediate conspiracy. Narcotics officers 
are required to assess the number of DTOs working in their area and are 
then graded on the number of DTOs that are dismantled.
    Texas narcotics officers are also required to compute the 
percentage of arrests that are ``End Users'', defined as a person who 
is the intended user of illegal drugs and generally motivated by 
addiction. Under the Perry Initiative, impacting the behavior of an End 
User may involve law enforcement activities, but it is generally 
assumed that treatment and mental health services are better equipped 
to deal with those problems. As such, narcotics officers that waste 
time and resources investigating and arresting drug users are 
negatively graded.
                             federal reform
    The Texas Reform Initiative is a good model for federal reform.
    First, Congress should pass H.R. 253, the No More Tulias: Drug Law 
Enforcement Evidentiary Standards Improvement Act of 2007. This 
legislation, introduced by Rep. Sheila Jackson Lee, would use the Byrne 
Grant program to encourage states to emulate many of the Texas reforms. 
It would prohibit states from funding regional narcotics task forces 
with Byrne Grant money unless they have enacted a law preventing people 
from being convicted of a drug law offense based solely on the 
uncorroborated eyewitness testimony of just one law enforcement officer 
or informant. This protection has prevented numerous innocent people 
from being wrongly convicted in Texas.
    The No More Tulias Act would also require local and state law 
enforcement agencies receiving federal Byrne Grant money to document 
their arrests by race and ethnicity. This provision is essential to 
ensuring that federal money is not being used to facilitate racially 
disparate enforcement. The Drug Policy Alliance recommends expanding 
this provision to also require the documentation of traffic stops and 
searches by race and ethnicity. Such information should be available to 
Congress, the U.S. Attorney General and the public.
    Congress should also pass legislation setting new performance 
measures for the Byrne Grant Program and state and federal drug law 
enforcement in general. The groundbreaking performance measures adopted 
by Texas are a good place to start. Drug law enforcement agencies 
should be graded on their ability to break up crime networks and 
apprehend violent offenders. Arrests and seizures should be strategies 
for achieving these goals, not measurement criteria to judge success or 
failure. A recent book by the American Enterprise Institute explains 
this strategy:

        ``Retail-level drug enforcement should focus on what it can 
        accomplish (reducing the negative side effects of illicit 
        markets) and not on what it can't achieve (substantially 
        raising drug prices). Thus, instead of aiming to arrest drug 
        dealers and seize drugs--the mechanisms by which enforcement 
        seeks to raise prices--retail drug enforcement should target 
        individual dealers and organizations that engage in flagrant 
        dealing, violence, and the recruitment of juveniles. Arrests 
        and seizures should not be operational goals, but rather tools 
        employed, with restraint, in the service of public safety.'' 
        (An Analytic Assessment of U.S. Drug Policy, February 2005)

    Instead of grading law enforcement operations on how many search 
warrants were issued, how many arrests were made, how many officers 
were solely dedicated to gang interdiction activities, and other 
Vietnam-like ``body count'' performance measures currently utilized by 
the Office of Justice Assistance, Congress should establish more 
meaningful criteria. Such criteria could include whether or not local 
crime rates are falling because of effective policies or how close law 
enforcement agencies are to dismantling major crime syndicates.
    The formula by which Byrne Grant funding is distributed should also 
be changed. At a minimum, the Office of Justice Programs should 
prioritize funding according to demonstrated reductions in crime. 
Cities and states that adopt effective policies should be rewarded, not 
punished. The Byrne Grant Program should be used to promote evidence-
based crime prevention strategies, not to fund cities and states year 
after year.
    One tool that would enhance the ability to measure performance and 
increase transparency would be the creation of a searchable public 
database that lists where Byrne Grant money is going and what it is 
being used for. This database would not only be invaluable to Congress, 
it would aid efforts by researchers and criminal justice experts to 
document ineffective spending and determine where Byrne Grant money is 
tied to corruption. It could be similar to the public database that 
tracks earmarks.
    Finally, Congress should pass legislation setting a new bottom line 
for U.S. drug policy more generally. The failed drug war policies of 
the last 30 years persist in part because of ineffective evaluation and 
assessment. There are three problems. First, the key measurements--drug 
seizures, arrests and annual surveys of drug use--tell us little of 
importance and mostly distract from more important criteria. Second, 
the Office of National Drug Control Policies (ONDCP) is statutorily 
obligated to set objectives for reducing drug use and availability, but 
not obligated to set objectives for reducing the public health threats 
associated with drug abuse (overdose fatalities, the spread of HIV/
AIDS), or the harms associated with the war on drugs (the number of 
nonviolent Americans behind bars, racial disparities in the criminal 
justice system). Finally, drug war programs persist even in the face of 
overwhelming evidence that they are failing to meet their own stated 
objectives.
    Legislation to set a new bottom line in U.S. drug policy could take 
many forms. It might take the form of requiring the Office of National 
Drug Control Policy (ONDCP) to report annually on the impact of federal 
policies on the number of nonviolent drug offenders in prison, HIV 
transmission rates, and overdose fatalities, and to commission 
independent cost-benefit analyses of federal drug policy expenditures. 
Or requiring federal agencies to provide annual reports on how many 
people are penalized by federal drug policies, such as the number of 
people denied student loans, housing, food stamps, and the right to 
vote because of a drug conviction.
    At a minimum, federal agencies should be required to set short- and 
long-term goals for reducing the problems associated with both drugs 
and punitive drug policies. ONDCP is already statutorily required to 
set national goals for reducing drug use and drug availability. Why not 
also require the agency to set goals for reducing overdose deaths, the 
spread of HIV/AIDS from injection drug use, racial disparities in the 
criminal justice system, the number of Americans who cannot vote 
because of a felony conviction.
    The urgent need to overhaul the Edward Byrne Memorial Justice 
Assistance Grant Program provides Congress with a great opportunity to 
evaluate drug and crime prevention more broadly.

    Mr. Scott. Thank you.
    Mr. Brooks?

 STATEMENT OF RONALD E. BROOKS, PRESIDENT, NATIONAL OFFICERS' 
            ASSOCIATION COALITION, SAN FRANCISCO, CA

    Mr. Brooks. Thank you, Mr. Chairman, Judge Gohmert, Members 
of the Subcommittee.
    I want to thank you for inviting me to share my 
perspectives on the Office of Justice programs.
    For years I have worked closely with the Office of Justice 
programs, primarily the Bureau of Justice Assistance, as a 
public policy partner, program beneficiary and grant recipient. 
Our communities are safer today because OJP and its bureaus 
play a critical role in providing much-needed assistance to law 
enforcement agencies through its training, grant funding, 
policy development, and technical assistance programs.
    I have some specific ideas related to OJP grant management, 
but first I want to highlight the most important OJP program 
from the perspective of America's narcotic officers: the Byrne 
Justice Assistance Grant, or JAG formula program.
    Byrne JAG is the cornerstone of multi-jurisdictional drug 
and gang enforcement in America. It provides incentives for 
State and local agencies to pool resources, share information, 
and pursue organizational targets in gang, firearm, money 
laundering and drug trafficking investigations.
    This program is essential, and yet the White House has 
zeroed it out in the past four budgets. Funding has declined 
dramatically, but thanks to bipartisan actions in this 
Subcommittee, Byrne JAG reauthorization passed the House in 
June and President Bush signed the bill into law.
    The administration's actions toward this program should be 
tested against a few simple questions: Is the drug trade 
dangerous to America's communities and families? Is drug 
production and smuggling interstate and international in 
nature? Does the Federal Government have a responsibility to 
help State and local law enforcement when it fails to secure 
our borders and ports through which the majority of drugs are 
shipped?
    To me the answer is clear. The Federal Government must 
share responsibility to contribute to task force efforts that 
will make our communities safer. Last year Byrne was cut from 
$520 million to $170 million, and this is down from $1.1 
billion in 2004. Supported by the coalition of more than 30 
organizations representing more than a million members 
throughout the country, bipartisan majorities in the House and 
Senate urged emergency supplemental funding to restore the cut.
    We were certainly disappointed when the administration and 
congressional leadership agreed to include more than $670 
million in emergency funds for foreign law enforcement agencies 
around the world, but nothing for Byrne JAG. I am hopeful that 
Congress will remedy this oversight by ensuring that program in 
one of its Federal funding packages.
    While the Byrne JAG program is indispensable, I share the 
Subcommittee's concern over the program's measurement. OJP 
needs to act, but we don't want to see the administration or 
Congress throw the baby out with the bathwater. Proposing a 
system of grant review and approval, basically on a scoring 
system subject to the bias of a few individuals, is a poor 
substitute for accountability. It doesn't measure the real 
impact that these programs have in their communities.
    Two years ago I approached OJP and suggested they develop 
performance measures for Byrne-funded task forces. BJA took our 
suggestion and commissioned a study to develop performance 
measurement possibilities. The report was provided to BJA; 
however, no action was taken. Whether it was OMB or other 
components of the administration that prevented it, this 
valuable tool never saw the light of day. And as a result, JAG 
has continued to go unmeasured.
    Some have suggested that horrific events like those that 
occurred in Tulia, Texas and other places demonstrate that 
Byrne JAG is not working and that law enforcement across the 
country is abusing Federal assistance. What happened in Tulia 
was shameful. However, it was not representative of Byrne-
funded task forces. If anything, Tulia demonstrates the urgency 
of ensuring that training and performance management be 
instituted as soon as possible.
    In addition to performance measures and training, 
information sharing is critical to successful task force 
management. The regional information sharing system, RISS, is 
indispensable. It allows officers to deconflict case 
information and maintain a culture of collaboration while 
protecting privacy and civil liberties.
    In OJP's global justice initiative, it has developed the 
much-needed policies and guidelines critical to creating a 
robust information-sharing environment that will support 
intelligence-led policing. The Center for Task Force Training 
is a BJA-funded program that provides training for task force 
managers to help them understand safe and effective practices. 
Tragedies like Tulia can be avoided if this training, which 
emphasizes a culture of integrity, risk management, and safety 
during enforcement operations, is well funded and widely 
available throughout the country.
    I would suggest that OJP consider taking three actions with 
regard to the Byrne JAG program. The first is to commit to 
developing a performance measurement system and ensure that BJA 
has the resources necessary for that system. The second, to 
ensure that BJA works with stakeholders to develop realistic 
measures. And finally, to ensure that training and information-
sharing are available to everyone as part of the Byrne JAG 
strategy.
    I want to thank you for inviting me to testify today. And 
Chairman Scott, I want to thank you, Ranking Member Gohmert, 
full Committee Chair Mr. Conyers, and certainly Congressman 
Johnson for all the efforts that you have led to support Byrne 
reauthorization and refunding of the Byrne program.
    Thank you.
    [The prepared statement of Mr. Brooks follows:]
                 Prepared Statement of Ronald E. Brooks
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    Ms. Leary?

   STATEMENT OF MARY LOU LEARY, EXECUTIVE DIRECTOR, NATIONAL 
          CENTER FOR VICTIMS OF CRIME, WASHINGTON, DC

    Ms. Leary. Thank you, sir. Thank you very much.
    Good morning, Chairman Scott, Ranking Member Gohmert, 
Members of the Subcommittee.
    I am Mary Lou Leary, the executive director of the National 
Center for Victims of Crime. That is a national non-profit 
organization that has, for almost 25 years now, worked to 
secure rights and resources to victims of crime or types of 
crime across this country. We do this through advocacy, direct 
services, technical assistance and training, and public 
outreach from public education.
    I am here today to try to lend some understanding to how 
grant funding through the Office of Victims of Crime at OJP 
benefits crime victims nationwide. OVC was established to 
enhance America's response to crime victims, to enhance 
assistance to crime victims. And people across the country, and 
people in this field, look to OVC to play a leadership role in 
changing attitudes, changing policies, changing practices--to 
promote justice and healing for crime victims.
    One of OVC's functions in this regard is to administer 
formula grants for crime victim compensation and victim 
assistance under the Victims of Crime Act fund, better known as 
the VOCA fund. That is made up of criminal fines that are 
collected from Federal offenders.
    I can tell you, these funds are the lifeblood of victim 
assistance across this country. They fund criminal justice 
agencies, as well as non-profit organizations that serve almost 
four million victims every single year. It is absolutely 
critical to maintain services to victims in America.
    We want to recognize the Members of this Subcommittee who 
have really worked so hard over the years to make sure that 
VOCA funds continue to be available for victim compensation and 
assistance.
    The other primary role of OVC is in discretionary grant-
making, where I will focus my remarks today. You know there is 
a statutory formula by which OVC gets a percentage of the VOCA 
distribution every year for discretionary grants. And these 
grants should be combined where they can service the field with 
information about promising practices. They should be fostering 
learning and collaboration among a host of organizations.
    This year, unfortunately, there was a combination of 
circumstances that resulted in VOCA funds being reduced to a 
level that was lower than what Congress had intended. More than 
$30 million was diverted for management and administration 
costs within OJP. And additional money was taken from VOCA to 
fund the management and administration of--the setup, 
actually--of the Department of Justice's Office of Audit, 
Assessment and Management, a new office.
    So these two reductions cut that funding by one-third in 
2008, and it reduced the formula grants also that States rely 
on to help crime victims. I understand that this issue will be 
addressed in the 2009 legislation, and we are glad to hear 
that.
    Let me share with you just a few of the highlights of the 
National Center for Victims of Crime's experience and work as 
an OVC grantee. OVC funding over the last 20 years and the 
number of grants to the National Center have helped us to bring 
victim advocates and professionals from a whole variety of 
fields together so that we can find new ways to address 
pressing challenges that face victims and those who serve 
victims.
    One example of this kind of project is one called ``Focus 
on the Future: A Systems Approach to Prosecution and Victim 
Assistance.'' In the early 1990's, prosecutors were facing a 
real challenge in implementing crime victims' rights statutes 
that had been passed. I was a prosecutor at that time, and I 
can tell you it was not an easy thing to figure out how to take 
on all the proposed provisions and do it right.
    And the National Center stepped up to the plate and 
collaborated with Mothers Against Drunk Driving, American 
Prosecutors Research Institute, and others to develop training, 
assistance--and it really led the way to coordinate on victims' 
issues and victims' services among a whole host of criminal 
justice agencies and community groups. And today, if you walk 
into any prosecutor's office in this country, you will almost 
always see that victims' services are now an integral part of 
prosecutor offices.
    OVC funding enabled us to do similar work in the 
corrections system. There was virtually no activity within the 
corrections field regarding victims' services. You would have 
parole hearings, people didn't get notified, there weren't 
victim impact statements allowed--they didn't really have a 
notion of, ``Hey, maybe we share in this responsibility, too. 
Maybe we should be doing something about victims' services 
through the correction services.''
    So the National Center collaborated with a whole group of 
national and California state criminal justice agencies to 
develop a whole protocol and program for correction to 
integrate victims' services into their work. And today, just 
about every State corrections system has a victims' services 
component, and we are very proud of that.
    We are always looking for new ways to address emerging 
challenges, to help policy makers and legislators address the 
need for victims and particularly, in order to foster systemic 
change, we work with OVC funding to help them write laws that 
will benefit victims. And one of our most recent projects is 
called VictimLaw, and I would encourage any and all of you and 
your staff to use VictimLaw. It is a very user-friendly 
database created by the National Center. It includes all local, 
Federal and tribal laws that have anything to do with victim 
rights.
    And if you are in a State legislature and you want to know, 
``what kind of a law should I draft in order to cover these new 
technology tools that are using to victimize people? I would 
like to know what they are doing in other places that worked, 
and I would like to know what kind of challenges have been 
brought to those laws.'' You can use VictimLaw to accomplish 
that and to create policies and to craft laws that will 
actually do the job in your community.
    So we are very grateful to OVC for funding and for 
leadership on initiatives like this, initiatives like serving 
the needs of special populations and under-served populations, 
folks with disabilities, teenagers, elderly, et cetera.
    So I hope, in conclusion, that--you can read my testimony 
and see more of the kinds of examples of what OVC grant-making 
can accomplish to lend some light to the broad impact that 
targeted discretionary funding can have in terms of improving 
our response to victims. And I will say, crime victims in this 
country deserve nothing less than top-level leadership from OVC 
and from the Department of Justice.
    Thank you.
    [The prepared statement of Ms. Leary follows:]
                  Prepared Statement of Mary Lou Leary
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you. Thank you, Ms. Leary.
    Mr. Marone?

   STATEMENT OF PETER MARONE, CHAIRMAN OF THE CONSORTIUM OF 
          FORENSIC SCIENCE ORGANIZATIONS, RICHMOND, VA

    Mr. Marone. Thank you, Mr. Chairman, Ranking Member 
Gohmert.
    It is certainly a pleasure to be here before you today. I 
testify not as a director of the Department of Forensic Science 
in Virginia, but as chairman of the Consortium of Forensic 
Science Organizations. The CFSO was founded in 2000 and 
represents members of the forensic science community, which are 
comprised of the American Academy of Forensic Scientists, the 
American Society of Crime Laboratory Directors, the 
International Association for Identification, National 
Association of Medical Examiners, the American Society of Crime 
Laboratory Directors--Laboratory Accreditation Board, and 
Forensic Quality Services. Our goal is to educate the public 
and policy makers on the truth of how the forensic community 
works and what our needs and requirements are.
    But I would like to bring to your attention today two 
things: First, the lack of funding that the forensic community 
is receiving in disciplines other than DNA, and second, the 
problems that our labs are working under with restrictions in 
funding and turn-around expectations.
    Our community has clearly grown to a technological 
revolution that has been singularly focused. While the use of 
forensic science dates back nearly 100 years in the U.S., our 
community has not prospered from the benefit of many of the 
technological advancements except in the discipline of DNA, 
primarily due to the lack of funding and visibility, as well as 
the newness and the impact of that particular science.
    As I stated, there are numerous examinations our labs 
perform, such as processing of controlled substances, firearms 
and tool marks, latent prints, trace evidence, toxicology and 
computer science crimes, just to name a few. In fact, these 
disciplines have a larger backlog and we receive more of these 
types of cases than we do with DNA cases.
    According to the 2005 Bureau of Justice statistics report 
which was released in 2008, our country's 389 State and local 
crime labs received 2.7 million cases in 2005 and ended that 
year with a backlog of 435,879 versus 252,810 at the beginning 
of the year. Of that backlog, the largest number was not DNA. 
DNA was the third largest backlog discipline and the fourth 
largest discipline in case receptions.
    Some of that can be attributed to the fact that with the 
increased visibility of this particular since, we received DNA 
samples on an increased number of crimes, such as touch 
evidence on packaging of drugs and firearms. That is why DNA is 
higher than it has been. It is increasing.
    To provide perspective, the median number of forensic 
requests each laboratory received in 2005--and I wanted to 
qualify that by saying the median number laboratories will go 
in size from a laboratory of--our Richmond laboratory is 150 
examiners. We have got a lot of laboratories with two and 
three-person examiners.
    So a median is not necessarily a true number of what the 
output is or the reception is for any particular laboratory. 
But the median number for that group were 2,716 for controlled 
substances. I get that much in a month. For toxicology, 909 for 
latent prints, 358 for biology screening, 337 for DNA analysis, 
and 257 for firearms and tool marks.
    Now, this is going to differ--the numbers of these in the 
different sections is going to differ from laboratory to 
laboratory, depending on what the reception is. Our backlog 
numbers show similar relative statistics. Controlled substances 
remains the largest for the median backlog, accounting for 51 
percent of the backlog of the cases, with latent fingerprint 
identification 16 percent, and as Chairman Scott noted himself, 
DNA being 9 percent.
    Yet the funding we receive from the government to process 
these cases--I am talking Federal Government--consistently 
remained at 100 percent funding for DNA requested by the 
Department of Justice. Fortunately Congress, particularly the 
U.S. Senate, funded the Paul Coverdell Act, which allows crime 
labs the flexibility to apply funds where they have the most 
need.
    However, that need has never been funded fully by Congress 
more than $20 million a year, and that has never been requested 
by the Department of Justice in their budget.
    Mr. Chairman, we support the funding of DNA initiatives and 
have been very excited by the continued advances in this 
particular science. But we can't support it to the exclusion of 
all the other disciplines. We are not saying get rid of the 
DNA, or put DNA for the other disciplines. We need additional 
funding for those other disciplines.
    There are still many crimes that do not have DNA involved, 
and those victims also deserve to have their cases done on a 
priority basis. Solving crimes means more than solving cases 
with DNA. We need to address all the disciplines of forensic 
science. On the many occasions that we have discussed this with 
the Department of Justice, we have heard responses ranging from 
``there is no data to support your claims''--and to their 
defense, when you look at the publications, the 2002 census was 
published in 2005, the 2005 census was published in 2008--or 
that only DNA had the political support.
    As a result, our association requested a commission to 
examine needs and requirements of all the disciplines. We are 
very pleased that the Senate Appropriations Committee asked the 
National Academy of Science to conduct this study. We eagerly 
await its release and findings later this year--probably the 
beginning of next year. We hope that this Committee will take 
that study and work toward comprehensive forensic legislation 
that gives us resources to complete the processing of all 
untested evidence on a priority basis.
    However, with the dawn of DNA, we have seen a revolution 
occur that has changed the way we had to work at potentially 
all the cases. Realistic expectations from both the judicial 
system, the attorneys, and the juries expecting capabilities 
that just aren't there. Some call it the CSI effect, if you 
will. A lot of people really think that we can do things in 47 
minutes. In point of fact, the turn-around time in many 
instances takes days or weeks.
    I can give you one particular example in toxicology. It is 
very simple with a one-drug application, an individual maybe 
has an overdose of a particular drug, or DUI. But there are a 
lot of instances where an individual--it is unfortunate that we 
have this term--we are looking at a drugstore, where the 
individual may have dozens of drugs. And they have to spend 
time, first looking for those drugs, maybe identifying all of 
them, and then having to quantitate them to find out if there 
is a therapeutic level, an overdose, or what have you.
    And so this is not something that can be done in a moment's 
notice. They are sequential in how you have to apply them. It 
takes personnel, financial resources, and an environment that 
permits an understanding of what we face and what our 
requirements are to ensure timely processing of evidence. Not 
all labs have the same capabilities, and not all of the numbers 
and types of cases each month. However, we are seeing our 
funding having onerous restrictions placed on them that some 
labs don't even apply for them.
    Quite often, requirements and solicitations for DNA funding 
changes annually, which requires laboratories to reprioritize 
their case approach to comply with the requirements. Now, I 
will say that this has changed in the last year, where they 
have become a little less specific, giving the laboratories the 
ability to adjust their protocols less and actually apply for 
more of those grants.
    Requirements for the Bloodsworth Act were such that even 
the few agencies which did apply were told they didn't meet the 
requirements. The requirements were later changed, but with a 
delay of almost a year. And you heard Mr. Sedgwick announce 
that those Bloodsworth grants were just recently awarded.
    Mr. Chairman, we would like to work with this Committee to 
shape the funding from Congress so that it is representative of 
the needs of laboratories and not reflective of what the 
perceived needs are from the outside influences.
    I thank you for your time, and I will answer your 
questions.
    [The prepared statement of Mr. Marone follows:]
                   Prepared Statement of Peter Marone
    Mr. Chairman and Members of the Committee, thank you for inviting 
me to testify before your Committee today. I testify today not as the 
Crime Lab Director for the Commonwealth of Virginia but as the Chairman 
of the Consortium of Forensic Science Organizations. The CFSO was 
founded in 2000 and represents members of the forensic science 
community which are comprised of the American Academy of Forensic 
Sciences, The American Society of Crime Laboratory Directors, the 
International Association for Identification, the National Association 
of Medical Examiners, the American Society of Crime Laboratory 
Directors/Laboratory Accreditation Board, and Forensic Quality 
Services. Our goal is to educate the public and policy-makers on the 
truth of how the forensic community works and what our needs and 
requirements are.
    What I'd like to bring to your attention today are two things. 
First the lack of funding that we are receiving in disciplines other 
than DNA and second, the problems that our labs are working under with 
increased restrictions on our funding and unrealistic turnaround 
expectations.
    Our community has clearly gone through a technology revolution but 
it has been singularly focused. While the use of forensic science dates 
back nearly 100 years in the U.S., our community has not prospered from 
the benefit of many of the technological advancements, except in the 
discipline of DNA, primarily due to lack of funding and visibility as 
well as the ``newness'' and impact of the science. As I stated earlier, 
there are numerous examinations that our labs perform such as the 
processing of controlled substances, firearms and toolmarks, latent 
prints, trace evidence, toxicology, and computer crimes to name a few. 
In fact, these disciplines have a larger backlog and we receive more of 
these types of cases than we do cases with DNA.
    According to the 2005 Bureau of Justice Statistics Report, which 
was released in 2008, our country's 389 State and Local crime labs 
received 2.7 million cases in 2005 and ended the year with a backlog of 
435,879 cases versus 252,810 at the beginning of the year. Of that 
backlog the largest number was not DNA. DNA was our third largest 
backlogged discipline and fourth largest discipline in case receptions. 
Some of that can be attributed to the fact that with the increased 
visibility of this science we have received DNA samples on an increased 
number of crimes, such as touch evidence on packaging of drug evidence 
and firearms. To provide perspective, the median number of forensic 
requests each lab received in 2005 were 2,716 for controlled substance, 
1,234 for toxicology, 909 for latent print, 358 for Biology screening, 
337 for DNA analysis, and 257 for firearms and toolmarks. Our backlog 
numbers showed similar relative statistics. The controlled substances 
discipline was the largest with a median backlog accounting for 51% of 
our backlog, with latent print identification being 16% and DNA 
analysis being 9%.
    Yet the funding we have received from the government to process 
these cases has consistently remained at 100% for DNA requested by the 
Department of Justice. Fortunately, Congress, particularly the US 
Senate, has funded the Paul Coverdell Act which allows the Crime Labs 
the flexibility to apply the funds where they have the most need. 
However, that has never been funded by the Congress for more than $20 
million a year and has never been requested by the Department of 
Justice in their budget.
    Mr. Chairman, we support the funding of the DNA initiatives and 
have been very excited by the continued advances in the science, but we 
cannot support this to the exclusion of the other disciplines. There 
are still many crimes that do not have DNA involved and those victims 
also deserve to have their cases be a priority. Solving crimes means 
more than solving cases with DNA. We need to address all of the 
disciplines of forensic science. On the many occasions that we have 
discussed this with the Department of Justice we have heard responses 
ranging from ``there is no data to support your claims of backlog in 
other disciplines'', to, ``only DNA has political support''. As a 
result, our association requested a Commission to examine the needs and 
requirement of all the disciplines. We were very pleased when the 
Senate Appropriations Committee asked the National Academy of Sciences 
to conduct this study and we eagerly await its release and findings 
later this year. We hope that this Committee will take that study and 
work toward comprehensive forensic legislation that give us resources 
to complete the processing of all untested evidence a priority.
    However, with the dawn of DNA, we have also seen a revolution occur 
and it has changed the way we can solve and potentially prevent crimes. 
BUT what has come with that are unrealistic expectations from the 
public and the government as to what our capacity and capabilities are 
and ever changing rules put upon us by the policy makers. We have found 
ourselves in a situation of increased visibility due to the dawn of 
popular television series, like CSI. Many expect that we can have a 
turn-around of a case in the hour it takes for CSI to air their show. 
In fact, it can take us from days to weeks, depending on the number of 
samples and the types of examinations to process evidence. But it takes 
personnel, financial resources, and an environment that permits an 
understanding of what we face and what our requirements are to ensure 
timely processing of evidence. Not all labs have the same capabilities 
and the number and types of cases vary each month. However, we are 
seeing our funding having such onerous restrictions placed on them that 
some labs do not even apply. Quite often, requirements in solicitations 
for DNA funding change annually which require laboratories to 
reprioritize their case approach to comply with the requirements. 
Requirements for the Bloodsworth Act were such that even the few 
agencies which applied were told they did not meet the requirements. 
These were later changed, but with a delay of almost a year. Mr. 
Chairman, we would like to work with this Committee to shape the 
funding from Congress so that it is representative of the needs of the 
laboratories and not reflective of what the perceived needs are from 
outside influences.
    Again, I thank you for inviting me to speak and I look forward to 
your questions.

    Mr. Scott. Thank you.
    And Mr. Sullivan?

  STATEMENT OF CHARLIE SULLIVAN, NATIONAL CURE, WASHINGTON, DC

    Mr. Sullivan. Mr. Chairman, Congressman Gohmert.
    CURE began in Texas in 1972, and we started with the bus 
service for families to the State prison in East Texas--so we 
are very familiar with Texas. Then we were a State 
organization. We became a national organization in 1985. Back 
then I attended meetings of the--in the 1970's in Texas in the 
State criminal justice planning agency, which was funded by 
then the Law Enforcement Assistance Administration.
    As you know, LEAA was the forerunner of the Office of 
Justice Programs. At these Texas meetings, I pointed out that 
LEAA funding neglected rehabilitation. Even LEAA nationally 
recognized this omission by creating a new grant funding 
section called Part E.
    And I remember--and I think, Mr. Gohmert, you probably knew 
our district attorney, Henry Wade, of Dallas County actually 
defended this Part E on rehabilitation to me 30, 35 years ago.
    But 30 years later, I still feel that its successor, OJP, 
places too little emphasis in supporting evidence-based adult 
corrections. I think in 35 years--we are a prison reform group 
that works with families of prisoners, former prisoners--we 
have never received a call from OJC to do a research project.
    And let me explain further. From 1996 until 2001, almost $3 
billion was given by the Bureau of Justice Assistance of OJP to 
States to build or expand prisons and jails. And this was the 
result of a Democratic administration and a Democratic Congress 
passing the Violent Offender Incarceration and Truth in 
Sentencing incentive program in the crime bill of 1994.
    Half of the funding was formula grant. But a condition of 
the other half was that States were encouraged to abolish 
parole. And I feel a strong case can be made that this program 
is one of the reasons why the United States, with only 5 
percent of the world's population now has 25 percent of the 
people in prison in the world.
    Also, by removing the flexibility of parole, violent 
offenders would actually be released earlier under this no-
parole policy. Neither during the crime bill debate nor in the 
6-year implementation of this massive prison building program 
did I see much information communicated to Congress by OJC 
regarding how this would dramatically increase our national 
incarceration rate.
    In my opinion, OJC basically went along to get along. Only 
after the intense criticism by a few members of both parties in 
Congress did this prison grant program open up the funds to 
alternatives and other correctional needs. But by then, 
however, the damage had been done. Many States were willing to 
build prisons even if they were not needed, and OJC knew this 
was wrong, and sadly, they kept quiet.
    This prison grant program came about when the Democrats 
controlled the executive and Congress. In the same way, the 
recently passed Adam Walsh Act also became law when the White 
House and leadership on Capitol Hill were of the same party. 
But this time, it was in Republican hands. And similar to what 
happened a dozen years earlier in the crime bill, the Adam 
Walsh Act, in my opinion, can be characterized as the political 
tail wagging the policy dog.
    Basically, the Act perpetuates three myths. One: the 
recidivism rate for sex offenders is high. In fact, a study by 
OJC's Bureau of Justice Statistics shows that recidivism rates 
for sex offenses are among the lowest of all types of crimes. 
The lowest, I think, is murder.
    Most sex offenses are committed by strangers. Again, a BJS 
report states that most sex offenses occur in families, and a 
2000 study points out that 93 percent of victims of child 
sexual abuse knew the perpetrator.
    Three: treatment does not work. On the contrary, national 
respected programs, like Dr. Fred Berlin's in Baltimore, have a 
success rate of near 90 percent. And I have visited that 
program. Although there are token mentions of treatment in the 
act, the SMART office created in OJP by the bill doesn't even 
include treatment, rehabilitation, or even management in its 
acronym.
    Like the prison grant program, there will probably be an 
amelioration down the road on the Adam Walsh Act. In the 
meantime, however, the country is spending precious resources, 
and many people--especially the young--will have already been 
ruined for life by having criminal records that are based on 
sin, not crime. Not committing crime, but sin.
    In both these examples, OJ's staff knew these policy 
decisions were wrong. But no one spoke up. I suspect that was 
because of staff allegiance to those who hired or appointed 
them. Thus, firstly, I would suggest that there be a bipartisan 
leadership at the top of OJP similar to the Federal 
Communications Commission or the Equal Economic Opportunity 
Commission, EEOC or FCC.
    In fact, LEAA, back when it was in the 1970's, had a 
bipartisan structure. Although this will not completely 
eliminate politics from OJP decisions, it will go a long way 
toward reducing the extremism that occurred in the prison grant 
program and is going on now in the Adam Walsh Act.
    In addition, there must be an independent advisory 
committee that is also bipartisan and reaches out to grassroots 
organizations like ours. Most groups like ours--and there are 
many, based on the Second Chance Coalition--have no idea what 
OJP is and what it is doing with its $2.4 billion budget.
    Secondly, I would recommend that before we rush to 
judgment, a new policy on a national scale, we should pilot the 
program. The program should have an appraisal conducted by an 
impartial party which must not in any way have a conflict of 
interest. That means--to me this is very important--absolute 
prohibition on receiving any money from OJP in the future or 
even in the past.
    In summary: I strongly recommend bipartisanship in decision 
making; an advisory committee where liberal and conservative 
organizations provide advice that is taken seriously; and the 
creation of robust pilot programs. If this is done, I think 
that the Office of Justice Programs will substantially improve 
its most important evidence-based crime reduction policies, and 
be in a much better position to communicate objective 
information--not subjective, but objective information to 
legislative and executive decision makers.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sullivan follows:]
                 Prepared Statement of Charles Sullivan
    For the past 35 years I have co-directed a grassroots criminal 
justice reform organization, Citizens United for Rehabilitation of 
Errants or CURE. CURE's members are families of people in prison, 
people in prison, people formerly in prison and other concerned 
individuals.
    When CURE began in Texas in the 70s, I attended meetings of the 
Texas state criminal justice planning agency which was funded by the 
Law Enforcement Assistance Administration (LEAA). As you know, LEAA was 
the forerunner of the Office of Justice Programs.
    When I had the opportunity to testify at these Texas meetings, I 
always pointed out that LEAA funding neglected rehabilitation. Even 
LEAA nationally recognized this omission by creating a new grant 
funding section called Part E. I remember then the well-known Dallas 
County prosecutor Henry Wade pointed this out to me at a hearing. This 
Part E in LEAA funding helped somewhat. But, 30 years later, I still 
believe that its successor, OJP, places too little emphasis in 
supporting evidenced-based adult corrections.
              politics must be removed from policy-making
    Let me explain. In 1985, CURE expanded to a national organization 
and we moved to Washington. Since being here, I have been extremely 
upset by the politics within OJP in regard to two major initiatives. 
These are The Truth in Sentencing Prison Grants and the Adam Walsh Act.
    I believe that policy initiatives of this sort occur when members 
of Congress are near elections and a sure vote-getter is being 
perceived as ``hard on crime''. Another contributing factor is that the 
OJP does not encourage the involvement of grassroots or nonprofit 
agencies. At least in our case, we tried but we had no input with the 
sponsors during the congressional debate on both theses landmark bills.
              parole was abolished and prisons became pork
    From 1996 until 2001, almost three billion dollars was given by the 
Bureau of Justice Assistance of OJP to states to build or expand 
prisons and jails. This was the result of a Democratic Administration 
and Democratic Congress passing the Violent Offender Incarceration and 
Truth-in-Sentencing Incentive Program in the Crime Bill of 1994.
    Half of the funding was formula grants but a condition of the other 
half was that states were encouraged to abolish parole. A strong case 
can be made that this program is one of the reasons why the United 
States with only 5% of the world's population now has 25% of the people 
in prison in the world. Also, by removing the flexibility of parole, 
violent offenders would actually be released earlier under this new no-
parole system.
    Neither during the Crime Bill debate nor in the six-year 
implementation of this massive prison building program, did I see much 
information communicated to Congress by OJP regarding how this would 
dramatically increase our national incarceration rate.
    In my opinion, OJP basically went along to get along! Only after 
intense criticism by a few members of both parties in Congress did this 
prison grant program open up the funds to alternatives and other 
correctional needs. By then, however, the damage had been done! Many 
states were willing to build prisons even if they were not needed and 
OJP knew this was wrong. Sadly, they kept quiet.
      adam walsh act: using a sledgehammer when a hammer is needed
    The VOI/TIS grant program came about when the Democrats controlled 
the executive and Congress. In the same way, the recently passed Adam 
Walsh Act (AWA) also became law when the White House and leadership on 
Capitol Hill were of the same party. But this time. it was in 
Republican hands. And similar to what happened a dozen years earlier in 
the Crime Bill, AWA, in my opinion, can be characterized as the 
political tail wagging the policy dog.
    Basically, AWA perpetuates three myths 1) The recidivism rate for 
sex offenders is high. In fact, a study by OJP's Bureau of Justice 
Statistics shows that recidivism rates for sex offenses are among the 
lowest of all types of crimes.
    2) Most sex offenses are committed by strangers. Again, a BJS 
report states that most sex offenses occur in families and a 2000 study 
points out that 93% of victims of child sexual abuse knew the 
perpetrator.
    3) Treatment does not work. On the contrary, nationally respected 
programs like Dr. Fred Berlin's in Baltimore have a success rate of 
near 90%. Although there are token mentions of treatment in AWA, the 
SMART Office created in OJP by AWA doesn't even include treatment, 
rehabilitation or management in its acronym.
    OJP again failed to communicate this most important information in 
the AWA debate in Congress and now in its implementation of the Act. 
Because of these failures and because of the violation of civil 
liberties, AWA has been described as falling apart at its seams. Daily 
we read about the courts ruling against it.
    Like the prison grant program, there will probably be an 
amelioration down the road. In the meantime, the country is spending 
precious resources and many people, especially the young, will have 
already been ruined for life by having criminal records based on sin 
not crime.
        solution 1: bipartisan leadership and advisory committee
    In both these examples, OJP staff knew these policy decisions were 
wrong. But, no one spoke up. I suspect that was because of staff 
allegiance to those who hired or appointed them. I would suggest that 
there be bipartisan leadership at the top of OJP similar to the Federal 
Communications Commission or the Equal Economic Opportunity Commission.
    In fact, LEAA had a bipartisan structure. Although this will not 
completely eliminate politics from OJP decisions, it will go a long way 
toward reducing the extremism that occurred in the prison grant program 
and is going on now in the Adam Walsh Act.
    In addition, there must be an independent advisory committee that 
is also bipartisan. In my opinion, the Reporting of Deaths in Custody 
legislation is a model of what OJP can do. This bill has always had 
strong bipartisan leadership. Staff of the Bureau of Justice 
Statistics, which implements this reporting bill, has met with myself 
and even made a presentation at a national CURE convention.
    In effect, they have reached out to a grassroots organization like 
us and I can say we have a real partnership. This is somewhat true too 
with a few past and present staffers of the National Institute of 
Justice, the research arm of OJP. But, being on a first name basis with 
OJP is an exception not the rule. Thus, most organizations like ours 
have no idea what OJP is and what it is doing with its 3 billion dollar 
budget.
                   solution 2: utilize pilot programs
    Criminal justice policy is much more complicated than many people 
realize. It tends to be an emotion-charged subject involving millions 
of unique people, millions of unique crimes, and thousands of unique 
communities. Many communities are fiscally strapped.
    It seems obvious to me that, before we rush to implement a new 
policy on a national scale, we should pilot the program. Any pilot 
should begin with clear expectations and should include an appraisal of 
problems and successes conducted by an impartial party which must not 
in any way have a conflict of interest. This means an absolute 
prohibition on receiving any money from OJP in the future or in the 
past. In my opinion, this did not happen before Congress passed the 
Truth in Sentencing Prison Grant Program in '94 nor in the Adam Walsh 
Act two years ago.
    In summary, I strongly recommend bipartisanship in decision-making, 
an advisory committee where liberal and conservative organizations 
provide advice that is taken seriously, and the creation of robust 
pilot programs. If this is done, I think that the Office of Justice 
Programs will substantially improve its most important evidence-based 
crime-reduction policies and be in a much better position to 
communicate objective information to legislative and executive 
decision-makers.

    Mr. Scott. Thank you, Mr. Sullivan.
    We have votes pending, so I will recognize the gentleman 
from Texas. We have a few minutes we can ask questions.
    Mr. Gohmert. Ms. Leary, how many States, if you know, have 
a victims' fund which is funded by fees by defendants that have 
to pay into the fund and/or State budgets financing as well?
    Ms. Leary. Well, VOCA, the Federal, is completely comprised 
of fines from criminal offenders on the Federal level.
    Mr. Gohmert. Right, but on the State level, do you happen 
to know how many States have that same type of program?
    Ms. Leary. I know that Texas has one.
    Mr. Gohmert. I know that.
    Ms. Leary. You know, we will get the information for you 
about other States----
    Mr. Gohmert. I would be curious about that.
    Ms. Leary [continuing]. That have about that, yes.
    Mr. Gohmert. I do like to help States and people that are 
willing to help themselves.
    Ms. Leary. Sure.
    Mr. Gohmert. Also, Mr. Sullivan, you have mentioned that 
you never got a call for one of those studies. Has CURE applied 
for grants?
    Mr. Sullivan. We are an advocacy organization; we are not a 
service. We don't get into it--that is where we can be 
objective.
    Mr. Gohmert. Oh, okay. Thank you.
    Let's see.
    Let me ask Mr. Marone. You know, we have had hearings on 
the DNA backlogs and had a lot of testimony over that issue. 
And we passed the Debbie Smith Bill to help address the 
problem. One of the concerns I have had is that it seems some 
labs are very efficient, do a terrific job, and have worked 
like crazy to reduce their backlogs. I am concerned that some 
that are not as efficient, don't do as good a job, don't have 
as good a work product, are the ones that end up screaming they 
need more money than anybody else because they have got the 
bigger backlog.
    Do you know of anything presently that may deal with that 
issue to try to encourage better efficiency and less 
inefficiency in the award of those type of grants?
    Mr. Marone. Well, one of the things we have to do is 
determine what the actual backlog is. I know a number of issues 
with laboratories is, someone will ask the question, how many 
cases are backlogged? And that is really not the number that 
the lab made. They ask the police department. They may have a 
particular number, and they are giving anything that is in the 
inventory, when in point of fact some of those cases might be 
cases that are there, but----
    Mr. Gohmert. Our time is limited, but if you could. I 
understand the problems with getting to a number. I am just 
talking about the process that may encourage inefficiency and 
discourage efficiency.
    Mr. Marone. Well, certainly one of the big-ticket items as 
far as--from an increase in productivity standpoint, is not 
just throwing more people at it. What some laboratories do is 
they just add more people to do the same operation, and that 
then spirals to more equipment, meaning more space, meaning 
everything.
    Mr. Gohmert. Well, the laboratories----
    Mr. Marone. What we really need to do is move to robotics 
and that type of application, where you can actually have the 
same number of people doing more work.
    Mr. Gohmert. But I guess what I am really asking from you 
would take more time if it is done right. Would you mind 
submitting suggestions in writing to this Committee----
    Mr. Marone. Absolutely.
    Mr. Gohmert [continuing]. On ways that we could encourage 
more efficiency by the awarding of grants and discourage less 
efficiency.
    Mr. Marone. Sure.
    Mr. Gohmert. If you wouldn't mind, because of your 
specialty, that would be a huge help.
    Mr. Marone. Absolutely.
    Mr. Gohmert. Thank you.
    Mr. Scott. The gentleman yields back, and we just have a 
couple of minutes before we have to leave.
    So let me ask Mr. Marone. As chairman of the Consortium of 
Forensic Science Organizations, do you have a recommended level 
of funding or what we could do?
    Mr. Marone. Mr. Scott, I remember you asked me that 
question before. And the answer is, I don't have a particular 
number. What we need to do is, we need to assess actually what 
the numbers are, what the requirements are. As I said before, 
we need to really get a good number as to what we are talking 
about.
    We need to ask the right question when we are asking for 
those surveys as to what is a case, what is a sample. 
Laboratories don't use that same terminology, and that is part 
of the problem.
    Mr. Scott. And Mr. Sullivan, you mentioned the abolition of 
parole. Has there been a study to ascertain whether or not that 
has reduced crime or not?
    Mr. Sullivan. Mr. Scott, I looked for that on the web. And 
basically what I saw evaluating the entire prison grant program 
were in-house studies promoting it. I never saw any study that 
actually looked at the prison grant program, whether abolishing 
parole, did this help in general?
    We, like I say, placed $3 billion into it, but it was all 
either promoting it, saying that it has worked and what it has 
been, but nothing really objective. And that would certainly 
seem to me would be one of the things OJP would have contracted 
out and making sure they don't give it to someone who is 
getting money from this.
    Mr. Scott. Well, as you have heard, we have to get to the 
floor just about immediately. So I would like to thank the 
witnesses for their testimony. Members undoubtedly will have 
additional questions in writing which we will forward to you 
and ask that you answer as promptly as you can so that your 
answers may be made part of the record.
    Without objection, the hearing record will remain open for 
1 week for the submission of additional materials.
    And without objection, the Subcommittee stands adjourned.
    [Whereupon, at 1:48 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
  Subcommittee on the Constitution, Civil Rights, and Civil Liberties
    Thank you, Mr. Chairman, for convening this oversight hearing on 
Department of Justice Office of Justice Programs (OJP). I look forward 
to hearing from and questioning Acting Assistant Attorney General 
Jeffrey Sedgewick of OJP regarding OJP and its component's missions, 
accomplishments, and its challenges. I also look forward to hearing 
testimony and questions our witnesses from organizations that represent 
the interests of OJP's customers and will provide their assessment of 
OJP's accomplishments and challenges.
    This hearing will examine the mission of OJP. The mission of OJP is 
to increase public safety and improve the fair administration of 
justice across America through innovative leadership and programs. The 
agency seeks to accomplish its mission by providing and coordinating 
information, research and development, statistics, training, and 
support to help the justice community, meet its public safety goals, 
and embrace local decision-making, while encouraging local innovation 
through national policy leadership. OJP implements is methods through 
the specific missions of its constituent organizations including, among 
others, the Bureau of Justice Assistance, the Bureau of Justice 
Statistics, the National Institute of Justice, the Office of Victims of 
Crime and the Office of Juvenile Justice and Delinquency Prevention.
    OJP serves a crucial role in supporting the Nation's criminal 
justice systems and as such its programs affect eth quality of life for 
all Americans. OJP's successes are many. However, OJP has also incurred 
a number of controversies, which the subcommittee will explore by 
examining testimony about programs its administers. The following 
sections detail the areas of OJP responsibility where the Subcommittee 
would like to concentrate.
    I look forward to hearing from the many representatives from the 
Bureau of Justice Assistance; the National Institute of Justice; the 
Office of Juvenile Justice and Delinquency Prevention.
    The Bureau of Justice Assistance provides leadership and assistance 
to local criminal justice programs that improve and reinforce the 
nation's criminal justice system. BJA's goals are to reduce and prevent 
crime, violence, and drug abuse and to improve the way in which the 
criminal justice system functions.
    To accomplish its goals, BJA administers numerous grant programs 
intended to support the nation's criminal justice systems. Many of 
these programs have enjoyed success with little controversy such as the 
Public Safety Officers' Benefits Program, which provides death 
benefits, educational opportunities and other assistance to survivors 
of fallen law enforcement officers, firefighters, and other first 
responders. There are programs that have also had serious setbacks, we 
will explore those programs in this hearing. Some of those will include 
Byrne-JAG and other grants. Byrne-JAG is important because it has 
experienced serious cutbacks. There have been serious backlogs and 
problems with DNA samples.
    The National Institute of Justice is the research, development, and 
evaluation agency of the Department of Justice and is dedicated to 
researching crime control and justice issues. The Subcommittee will 
question NIJ officials about the number of criminal justice issues that 
the agency has researched and evaluated. In addition, the Subcommittee 
will discuss as to NIJ's plans for researching future issues.
    Forensic Science is one of NIJ's most important research and 
funding areas. It has been affected give the President's cuts on DNA 
and because of changes to programs like the Debbie Smith Act.
    The Office of Juvenile Justice and Delinquency Prevention provides 
national leadership, coordination, and resources to prevent and respond 
to juvenile delinquency and victimization. It's mission is to support 
states and communities in their efforts to develop and implement 
effective and coordinated prevention and intervention programs. Also, 
its mission is to improve the juvenile justice system so that it 
protects public safety, holds offenders accountable, and provides 
treatment and rehabilitative services tailored to the needs of 
juveniles and their families.
    Thank you, Mr. Chairman. I welcome today's witnesses. I yield back 
the balance of my time.

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

  Prepared Statement of Sue Else, President, National Network to End 
                       Domestic Violence (NNEDV)
    Chairman Scott and Ranking Member Gohmert and members of the 
Subcommittee, thank you for the opportunity to submit written testimony 
for this hearing on the oversight of the Office of Justice Programs. We 
are grateful to the subcommittee for your leadership and your ongoing 
work to improve the safety and well-being of our nation.
    The National Network to End Domestic Violence (NNEDV) is a 
membership and advocacy organization representing the 54 state and U.S. 
territory domestic violence coalitions. NNEDV is the voice of these 
coalitions, their more than 2,000 local domestic violence member 
programs, and the millions of domestic violence survivors who turn to 
them for services.
    The Victims of Crime Act (VOCA) fund state victim assistance grants 
are a key source of funding for programs that directly assist crime 
victims, including crisis intervention, assistance with the criminal 
justice process, safety planning, counseling, support, court 
accompaniment, and much more. Domestic violence, sexual assault, and 
general victim services programs all have pressing needs to expand 
their outreach and service components. Some 4,400 agencies rely on 
continued VOCA funding to serve over 4 million victims a year.
    In a recent survey, over 99% of domestic violence service providers 
indicated that VOCA funds were a ``very important'' source of 
funding.\1\ When the FY 2008 Budget cut $35 million from the VOCA Fund, 
our member programs were understandably shocked and very distraught. 
They knew that this cut would have a devastating impact on domestic 
violence service providers, who serve victims and their children who 
are often fleeing from life-threatening violence.
---------------------------------------------------------------------------
    \1\ VOCA Funding Survey. (2008). National Center for Victims of 
Crime. http://www.nnedv.org/docs/Policy/VOCA_SurveyResults.pdf
---------------------------------------------------------------------------
    According to the survey, as a result of the VOCA cuts, over 58% of 
victim service providers said they would serve fewer victims and over 
46% said they would provide fewer services. A clear message from the 
survey was that funding cuts would have an immediate and significant 
impact.
    Even before the VOCA cuts, domestic violence service providers were 
already hampered by a lack of funding and resources. The National 
Census of Domestic Violence Services found that in one 24-hour time 
period domestic violence programs across the nation served over 53,200 
women, men and children. Unfortunately, due to a lack of resources, 
7,707 requests for services were unmet during that same day.\2\ Funding 
cuts widen the gap caused by an increased demand for services and 
declining resources.
---------------------------------------------------------------------------
    \2\ Domestic Violence Counts 07: A 24-hour census of domestic 
violence shelters and services across the United States. (2008) 
National Network to End Domestic Violence.
---------------------------------------------------------------------------
    These devastating funding cuts were exacerbated by the delay in 
distributing the VOCA state victim assistance grants. While waiting for 
VOCA assistance grants to be distributed in June, over 86% of states 
surveyed indicated that their VOCA funding was in a serious, very 
serious, or dire situation because of the delay.
    Victim service providers serve vulnerable victims with very limited 
resources. Waiting with uncertainty for an essential and significant 
funding stream cripples programs' planning processes, jeopardizes staff 
positions, and, most importantly, endangers victims who rely upon 
services in times of crisis.
    As a coalition of domestic violence advocates and service 
providers, we know that the services provided by our member programs 
are critical and life-saving. As the demand for services continues to 
increase, victim service providers struggle to meet the needs of all 
the victims who come forward for help. The VOCA state victim assistance 
grants are essential for victim service providers to keep their doors 
open and provide services to victims in crisis. Therefore, we urge 
Congress to continually provide oversight to ensure that the VOCA state 
victim assistance grants are distributed in a timely manner.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
